<html>
<title> - REAUTHORIZATION OF THE McKINNEY-VENTO HOMELESS ASSISTANCE ACT, PART I</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                 REAUTHORIZATION OF THE McKINNEY-VENTO
                    HOMELESS ASSISTANCE ACT, PART I

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2007

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-68



                                     
                    U.S. GOVERNMENT PRINTING OFFICE
39-906                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            RICHARD H. BAKER, Louisiana
CAROLYN B. MALONEY, New York         DEBORAH PRYCE, Ohio
LUIS V. GUTIERREZ, Illinois          MICHAEL N. CASTLE, Delaware
NYDIA M. VELAZQUEZ, New York         PETER T. KING, New York
MELVIN L. WATT, North Carolina       EDWARD R. ROYCE, California
GARY L. ACKERMAN, New York           FRANK D. LUCAS, Oklahoma
JULIA CARSON, Indiana                RON PAUL, Texas
BRAD SHERMAN, California             STEVEN C. LaTOURETTE, Ohio
GREGORY W. MEEKS, New York           DONALD A. MANZULLO, Illinois
DENNIS MOORE, Kansas                 WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
RUBEN HINOJOSA, Texas                JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN McCARTHY, New York           GARY G. MILLER, California
JOE BACA, California                 SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
BRAD MILLER, North Carolina          TOM FEENEY, Florida
DAVID SCOTT, Georgia                 JEB HENSARLING, Texas
AL GREEN, Texas                      SCOTT GARRETT, New Jersey
EMANUEL CLEAVER, Missouri            GINNY BROWN-WAITE, Florida
MELISSA L. BEAN, Illinois            J. GRESHAM BARRETT, South Carolina
GWEN MOORE, Wisconsin,               JIM GERLACH, Pennsylvania
LINCOLN DAVIS, Tennessee             STEVAN PEARCE, New Mexico
ALBIO SIRES, New Jersey              RANDY NEUGEBAUER, Texas
PAUL W. HODES, New Hampshire         TOM PRICE, Georgia
KEITH ELLISON, Minnesota             GEOFF DAVIS, Kentucky
RON KLEIN, Florida                   PATRICK T. McHENRY, North Carolina
TIM MAHONEY, Florida                 JOHN CAMPBELL, California
CHARLES A. WILSON, Ohio              ADAM PUTNAM, Florida
ED PERLMUTTER, Colorado              MICHELE BACHMANN, Minnesota
CHRISTOPHER S. MURPHY, Connecticut   PETER J. ROSKAM, Illinois
JOE DONNELLY, Indiana                THADDEUS G. McCOTTER, Michigan
ROBERT WEXLER, Florida               KEVIN McCARTHY, California
JIM MARSHALL, Georgia
DAN BOREN, Oklahoma

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
JULIA CARSON, Indiana                    Virginia
STEPHEN F. LYNCH, Massachusetts      STEVAN PEARCE, New Mexico
EMANUEL CLEAVER, Missouri            PETER T. KING, New York
AL GREEN, Texas                      CHRISTOPHER SHAYS, Connecticut
WM. LACY CLAY, Missouri              GARY G. MILLER, California
CAROLYN B. MALONEY, New York         SHELLEY MOORE CAPITO, West 
GWEN MOORE, Wisconsin,                   Virginia
ALBIO SIRES, New Jersey              SCOTT GARRETT, New Jersey
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
CHARLES A. WILSON, Ohio              GEOFF DAVIS, Kentucky
CHRISTOPHER S. MURPHY, Connecticut   JOHN CAMPBELL, California
JOE DONNELLY, Indiana                THADDEUS G. McCOTTER, Michigan
BARNEY FRANK, Massachusetts          KEVIN McCARTHY, California


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    October 4, 2007..............................................     1
Appendix:
    October 4, 2007..............................................    45

                               WITNESSES
                       Thursday, October 4, 2007

Allard, Hon. Wayne, a United States Senator from the State of 
  Colorado.......................................................     3
Anderson, Barbara, Executive Director, Haven House Services......    21
DeSantis, Deborah, President and Chief Executive Officer, 
  Corporation for Supportive Housing.............................    19
Foscarinis, Maria, Executive Director, National Law Center on 
  Homelessness & Poverty.........................................    15
McKinney, Hon. John, State Senator, State of Connecticut.........    17
Reed, Hon. Jack, a United States Senator from the State of Rhode 
  Island.........................................................     1
Rosen, Jeremy, Executive Director, National Policy and Advocacy 
  Council on Homelessness........................................    40
Vasquez, Jessica, Executive Director, New York State Coalition 
  Against Domestic Violence......................................    37
Walker, Pittre, Homeless Liaison, Caddo Parish School Board......    23
Weintraub, Amy, Executive Director, Covenant House of West 
  Virginia.......................................................    35
Young, Linda M., Executive Director, Welcome House of Northern 
  Kentucky.......................................................    38

                                APPENDIX

Prepared statements:
    Carson, Hon. Julia...........................................    46
    Anderson, Barbara............................................    48
    DeSantis, Deborah............................................    60
    Foscarinis, Maria............................................    68
    McKinney, Hon. John..........................................    74
    Rosen, Jeremy................................................    79
    Vasquez, Jessica.............................................    95
    Walker, Pittre...............................................   129
    Weintraub, Amy...............................................   141
    Young, Linda M...............................................   150


                         REAUTHORIZATION OF THE
                        McKINNEY-VENTO HOMELESS
                         ASSISTANCE ACT, PART I

                              ----------                              


                       Thursday, October 4, 2007

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters, Cleaver, Green; 
Capito, Biggert, Shays, Neugebauer, Davis, and McCarthy.
    Ex officio: Chairman Frank.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order. And I 
would like to deviate a little bit from our normal schedule and 
protocol. We have United States Senators Reed and Allard here 
this morning, and I would like to afford them the opportunity 
to make their statements, and then we will proceed. I will 
start with Senator Reed.

 STATEMENT OF THE HONORABLE JACK REED, A UNITED STATES SENATOR 
                 FROM THE STATE OF RHODE ISLAND

    Senator Reed. Thank you very much, Madam Chairwoman. It is 
a pleasure to be here. And thank you for your invitation, and 
also thank you, Ranking Member Capito, for your hospitality 
this morning.
    I am delighted to be with my colleague and friend, Wayne 
Allard. We were reminiscing a bit. We entered the House of 
Representatives together in 1991, and the Senate in 1997, so, 
this is the Wayne and Jack show.
    [Laughter]
    Senator Reed. We have been working for a number of years on 
the reauthorization of the McKinney-Vento Homeless Assistance 
Act, and we have been superbly aided by our staff members, Kara 
Stein and Tewana Wilkerson.
    This is important legislation. And, throughout this 
process, we have sought significant input, meeting with all 
interested parties, inviting written comments on all of our 
drafts, and holding hearings for several Congresses in a row on 
the reauthorization of this very important legislation.
    We are very pleased with the latest version of our 
legislation, S. 1518, the Community Partnership to End 
Homelessness Act. It was approved unanimously by the Senate 
Banking Committee on September 19th, and it is our hope to have 
this bill passed by the entire Senate, and sent over to you 
very shortly. We welcome the opportunity you have given us this 
morning to talk about some of the highlights of this bipartisan 
legislation.
    Though the last significant reauthorization of the 
McKinney-Vento Act occurred in 1994, a number of important 
changes have been made over the last several years, most 
significantly in 1995. In 1995, Congress consolidated the 
funding from several accounts, and HUD began encouraging 
communities to submit a single application for funding. The 
purpose of this single application was not only to streamline 
the application process, but also to encourage providers to 
coordinate an overall strategy for preventing and ending 
homelessness in their community.
    This process became known as the continuum of care, and our 
bill has been designed to enact into statute this award-winning 
program. Our reauthorization legislation, in large part, has 
been designed to provide this continuum of care program on a 
broader basis throughout the country.
    We eliminate three separate programs and consolidate them 
into a single community homeless assistance program. 
Communities can now make a single application for funding from 
this program, and use the funding for a broad array of 
activities to reduce homelessness.
    We are particularly proud of the new focus on rural 
homelessness in S. 1518. Our bill would allow rural communities 
to apply for funding through a separate competition at HUD. 
Under the legislation, a rural community can also use funds 
more flexibly for such activities as homelessness prevention 
and housing stabilization, in addition to transitional housing, 
permanent housing, and support services.
    The application process for these funds is more 
streamlined, and consistent with the capacities of rural 
homelessness programs. In addition, a minimum of 5 percent of 
the overall funding for homeless programs would go to the rural 
competition, which will ensure that this program is truly used 
to better address rural homelessness.
    Another major change in S. 1518 is that 20 percent of the 
overall funding for HUD homeless programs would be distributed 
by formula to cities, counties, and States as emergency 
solution grants. Currently, only 11 percent of homelessness 
assistance funds go out to emergency shelter grant programs and 
most communities use those funds exclusively for temporary 
emergency shelters.
    S. 1518 basically doubles the amount of money that would go 
out to communities via block grant, and would allow at least 40 
percent of these funds to be used for prevention activities, in 
addition to emergency shelter. These new emergency solutions 
grants will allow communities to help people who are at 
greatest risk of becoming homeless.
    I think this is a major improvement in how we deal with 
people who are living on the edge of homelessness. Instead of 
forcing everyone who is unstably housed to be defined as 
homeless--a definition which most individuals and families 
don't want to meet--cities, counties, and States would be able 
to use up to $440 million to help people in bad housing 
situations from becoming homeless in the first place, through 
help with rental payments, security deposits, and utility 
payments.
    I would also like to mention a few things we have done in 
particular, to tackle the terrible problem of family 
homelessness.
    First is the expansion we have made to the definition of 
homelessness, which recognizes that families with multiple 
moves are in just as much need of the emergency stabilization 
that the homeless system provides as a family living in a car 
or a campground.
    Second, we have included families with a disabled member in 
the definition of chronically homeless.
    Third, we have included a family housing and service 
demonstration project that will allow us to study what housing 
and service models work best for families.
    As a result of all these changes, 100 percent of the 
funding of the bill is now available to families. This should 
make a tremendous difference in how our Federal homeless 
programs help prevent and reduce family homelessness. It has 
been 20 years since the enactment of the Stewart B. McKinney 
Homeless Assistance Act, and we have learned a lot about the 
problem of homelessness since then.
    Senator Allard and I believe the Community Partnership to 
End Homelessness Act puts some of these best practices and 
proposals into action, and will help communities break the 
cycle of repeated and prolonged homelessness. We look forward 
to working together with you on reauthorizing the housing 
titles of the McKinney-Vento Homelessness Assistance Act, to 
better focus them on preventing and ending long-term 
homelessness.
    And a final point. I did not have the privilege of serving 
with Stewart McKinney, but both Wayne and I served with Bruce 
Vento, and he was an extraordinary gentleman. And this is a 
fitting tribute to his efforts, and if we improve it, I think 
he would be very pleased and proud. Thank you.
    Chairwoman Waters. Thank you, Senator Reed. Senator Allard?
    Senator Allard. Chairwoman Waters. Well, first of all, I 
wanted to express my sincere appreciation, Chairwoman Waters, 
and also Ranking Member Capito. I ask permission to put my full 
statement into the record. It goes longer than 5 minutes. And 
in respect to your time limits, I will not read my full 
statement, I will just give you parts of it, if I may.
    Chairwoman Waters. Without objection, such is the order.

   STATEMENT OF THE HONORABLE WAYNE ALLARD, A UNITED STATES 
               SENATOR FROM THE STATE OF COLORADO

    Senator Allard. I would also like to acknowledge the hard 
work that my colleague and his staff have put forward on this 
particular piece of legislation, something that we have been 
working on for several years.
    As a result of that, I think we have come up with a good 
bipartisan effort, and it takes us back to when we had the 
first homeless assistance act, which was in 1987, and then that 
was modified, which is now known as the McKinney-Vento Homeless 
Assistance Programs, which I do remember serving on the 
Agriculture Committee at the time, and working with Bruce 
Vento, who did a considerable amount of work on homelessness.
    This act was the first comprehensive law addressing the 
diverse needs of the homeless, including programs at the 
Department of Health and Human Services, the Department of 
Education, the Department of Labor, the Department of 
Agriculture, and the Department of Housing and Urban 
Development.
    And, until enactment of this law, the problems confronted 
by the homeless were mainly addressed at the State and local 
level. Currently, the Federal Government devotes significant 
resources to the homeless, yet despite the enormous Federal 
resources directed toward homelessness, the problem persists.
    In my view, we need to bring more accountability to 
homeless assistance, increasing funding for those successful 
programs and initiatives, and then replacing those that are 
ineffective.
    So, there seems to be a consensus that the McKinney-Vento 
Act has been an important tool to help some of society's most 
vulnerable members, and that the first step should be 
reauthorization of the Act. I appreciate that you are holding 
this hearing to explore this issue.
    There also seems to be increasing consensus that the second 
step should be consolidation of the existing programs. I 
originally introduced consolidation legislation in 2000, and 
then Senator Reed offered a proposal in 2002. HUD also 
advocated for a consolidation of programs for several years 
now.
    While we differed in some of the details, including the 
funding distribution mechanism for a new program, these 
legislative proposals offered consensus on the important 
starting points of reauthorization and consolidation. We worked 
together to find the best elements of both bills, and after 
extensive discussions and outreach, Senator Reed and I 
introduced Senate Bill 1518, known as the Community Partnership 
to End Homelessness Act.
    Our bill will consolidate the existing programs at HUD, and 
to the new community homeless assistance program. And why is 
this consolidation so important? I think our colleague and 
former HUD Secretary, Senator Mel Martinez, described it very 
well during the Banking Committee's mark-up of the bill. He 
described how the HUD Secretary had his grantees confused by 
the various programs, not sure how to apply, and for which 
programs they were even eligible. It was under his leadership 
that HUD began to advocate consolidation of the programs.
    Quite simply, consolidation will reduce administrative 
burdens and maximize flexibility. Rather than dealing with 
conflicting eligibility requirements, conflicting eligibility 
uses, multiple applications, and different match requirements, 
applicants will have to deal with only one flexible program. 
This streamlined approach will combine the efficiencies of a 
block grant with the accountability of a competitive system.
    I am especially supportive of approaches such as those in 
the Community Partnership to End Homelessness Act, that focus 
on results, rather than processes. Communities that demonstrate 
results in preventing and ending homelessness will be rewarded. 
I think this is an important aspect.
    We also believe that the bill makes an appropriate 
distinction between rural areas and large, metropolitan areas. 
While both areas experience homelessness, the problem manifests 
itself in very different ways, and the solutions are different.
    I believe that we all share the goal of wanting to prevent 
and end homelessness in America. There are many different 
people with many different and laudable ideas of how to 
accomplish this goal. The Community Partnership to End 
Homelessness Act strikes the balance between these many 
viewpoints.
    The balance is demonstrated by the unanimous support the 
bill received in the Senate Banking Committee. Republicans and 
Democrats, urban areas like New York, and rural areas like 
Wyoming, everyone came together to say that we believe the 
Community Partnership to End Homelessness Act would help 
prevent homelessness in the United States.
    Senator Reed and I, along with our other colleagues, look 
forward to working with you to enact legislation to accomplish 
this goal, and thank you for allowing us to be here today to 
testify before the subcommittee.
    Chairwoman Waters. Once again, I would like to thank 
Senator Reed and Senator Allard, for making time to speak with 
us today. The extraordinarily thoughtful and consultative 
process you undertook in crafting the Community Partnership to 
End Homeless shines through clearly, and I aspire to the 
standard as the subcommittee focuses on reauthorizing the 
McKinney-Vento Act.
    We are lucky to have S. 1518, as well as H.R. 840, the 
Homeless Emergency Assistance and Rapid Transition to Housing 
Act, which we will hear more about shortly, to work from, as we 
move forward.
    At this time, I know you need to return to your pressing 
work with the Banking Committee, and I ask our second panel of 
witnesses to come forward. Thank you very much.
    Mr. Shays. Madam Chairwoman?
    Chairwoman Waters. Yes?
    Mr. Shays. Madam Chairwoman, could I just make a quick 
comment, very quick?
    Chairwoman Waters. Yes, I yield to the gentleman from 
Connecticut.
    Mr. Shays. I just want to thank both of you for working on 
a bipartisan basis. This is what this committee is doing. And 
it is just nice, in this kind of excited world, that on such an 
important issue, we see this bipartisan help. I thank you both.
    Senator Allard. Well, it has been a pleasure to work with 
Senator Reed. We worked together in Armed Services, we are 
together on Banking and everything, so it is a real pleasure.
    I was thinking, Chairwoman Waters, you must have come into 
the House about the same time we did, didn't you?
    Chairwoman Waters. I did. I did.
    Senator Allard. That is right, you were in our class, I 
think.
    Chairwoman Waters. That is right.
    Senator Allard. So, it is kind of a reunion here.
    Mr. Shays. Thank you, Madam Chairwoman.
    Chairwoman Waters. This has been a good reunion on a good 
issue that we can do something about. Thank you very much.
    I would like to ask our second panel to take their seats at 
the table. I will now proceed with our opening statements, and 
I will recognize myself for 5 minutes.
    Allow me to begin by repeating something I have said a 
number of times since assuming my position as Chair, namely 
that I intend to make preventing and ending homelessness a 
priority focus of the Housing Subcommittee. There is simply no 
more stinging indictment of recent Federal housing policy than 
its failure to prevent and end literal homelessness.
    I am proud to note that the first serious attention 
Congress paid to modern homelessness consisted of hearings 
convened 25 years ago by my distinguished predecessor, as Chair 
of the then-Housing and Community Development Subcommittee, the 
late Henry Gonzalez.
    From those hearings evolved the McKinney Act itself, 
thanks, of course, to the dedication of Chairman Gonzalez's 
full committee colleagues, Stewart McKinney of Connecticut, 
whose son we look forward to hearing from today, and Bruce 
Vento of Minnesota.
    Since enactment in 1987, the McKinney-Vento Act programs 
have helped thousands of homeless men, women, and children 
return to stable housing and lives, in which they can reach 
their full potential. I hope that we can move forward on 
reauthorizing this critical legislation in the same bipartisan 
spirit that animated Representatives McKinney and Vento.
    But the sad fact is that the McKinney-Vento Act programs 
should not be so desperately needed 2 decades after they were 
established. Earlier this year, I joined many of the 
organizations represented on the witness panels here today at 
last week's hearing, at an event marking the 20th anniversary 
date itself, where appropriately, bittersweet chocolate bars 
were distributed, reflecting the ambivalence we felt.
    I dare say that Representatives McKinney and Vento 
themselves would be disappointed to learn that these programs 
remain the linchpin of the Federal response to homelessness.
    Notably, the legislative history of this bill in the 
Congressional Record makes clear that nobody involved at the 
time believed that the McKinney-Vento Act alone would end 
homelessness, despite its ambitious creation of 15 separate 
programs, and an authorization of over $400 million in funding.
    Indeed, the original House bill was entitled, ``The Urgent 
Relief for the Homeless Act.'' Simply put, the McKinney-Vento 
programs were always meant as a first step, a first step toward 
a social safety net in which no person is forced to live on the 
streets or in shelters because of poverty, whether or not that 
poverty is coupled with additional challenges like mental 
illness, drug addiction, or HIV/ AIDS.
    What also struck me was how much the people present at the 
birth of these programs we consider today knew or suspected, 
even in the midst of a new crisis, about the real long-term 
solutions to homelessness, of necessity, perhaps, given the 
rapid and overwhelming growth in homelessness at the time. The 
majority of early McKinney-Vento Act authorizations and 
appropriations funded emergency food and shelter assistance.
    Yet, from the outset, the McKinney-Vento Act invested in a 
wide range of interventions, including permanent support of 
housing, transitional housing, education, mental health, and 
substance addiction services, job training, and other 
interventions.
    Building on this basic infrastructure, academic research 
coupled with the hard-earned knowledge of practitioners and 
government, have moved us to a place where we now know much 
more about who the homeless are, and what it takes to end 
homelessness for them, more than we knew then in 1987.
    As we will hear from the witnesses here today, there is 
vastly improved understanding of how to meet the needs of the 
various homeless households, from the mentally ill or drug-
addicted individuals who have lived on the streets for years, 
to families with histories of domestic violence or childhood 
sexual abuse, to veterans of the current and prior wars. We 
will build on that knowledge and our work to reauthorize the 
McKinney-Vento Act.
    I want to be clear that this does not mean that I expect 
the witnesses today or next week to agree entirely on precisely 
what we should do, in terms of reauthorization. I mention this 
because it sometimes bothers me that policymakers impose 
expectations on advocates for the poor to deliver unanimous 
support on a silver platter when no such thing is demanded from 
the more powerful, well-heeled constituencies.
    Just as this committee routinely learns from debates 
between individual investment banks or hedge funds, and even 
battles among different sectors of the financial services 
industry, so too do we benefit from the perspectives of the 
informed and passionate stakeholders in the effort to end 
homelessness. Our job as legislators is to draw the best from 
all that we hear and we quite often end up leaving nobody 
entirely happy.
    I will conclude, however, with a sobering reflection that 
the bottom line of the homelessness is the bottom line, which 
is that we haven't made demonstrable progress in reducing the 
number of households experiencing homelessness nationwide in 
the past 2 decades.
    Indeed, despite lots of heartwarming individual success 
stories, we may very well have lost ground. Homeless people are 
notoriously difficult to count, for obvious reasons. So it is 
hard to get consensus on what estimates can reliably be 
compared to others.
    But let me put it this way. There is absolutely no evidence 
that the over 800,000 or so people whom we know, pretty 
reliably, to be homeless on any given night--over 10 percent of 
them in Los Angeles, alone--are a lower number than the day the 
McKinney-Vento Act was passed. And fully 34,000 individuals in 
Los Angeles County alone, and perhaps 4 times that nationwide, 
are considered chronically homeless, meaning they experience 
long and repeated episodes of homelessness.
    Let me just conclude my remarks by thanking our witnesses 
for being here today, and thanking the members of this 
committee for already indicating that this, too, is a high 
priority with them, and their willingness to work in a 
bipartisan manner to get something done.
    With that, I would like to recognize Ranking Member Capito 
for as much time as she would need. This is her first opening 
statement as the new representative for the subcommittee--thank 
you very much--on the minority side.
    Mrs. Capito. Thank you, Chairwoman Waters. And this, 
indeed, is my first hearing as the ranking member. I am trying 
to fill Judy Biggert's shoes over here. They are large shoes 
over here. And thank you, Chairwoman Waters, for scheduling 
this hearing today on the reauthorization of the McKinney-Vento 
Act.
    I also want to take this opportunity today to welcome one 
of the witnesses here who is on our third panel, Amy Weintraub. 
She is the executive director of the Covenant House, in 
Charleston, West Virginia, my home and my district. Amy is a 
good friend, and a tireless advocate for the homeless in not 
only Charleston, West Virginia, but also the surrounding 
metropolitan area.
    She has been very active in the Charleston community, and 
in our State of West Virginia over the last decade, within the 
homelessness advocacy community, but also on many other issues 
including health care education and domestic violence. I would 
like to thank her, and all of the witnesses, for taking time 
from your schedules to share your experiences on the front 
lines of helping to end homelessness.
    While the overall number of homeless families and 
individuals is extremely difficult to predict, as the 
chairwoman mentioned in her remarks, it is estimated that at 
least 700,000 people are homeless, and as many as 2 million to 
3.5 million people experience homelessness at least once during 
an average year.
    Unfortunately, this number continues to grow. In recent 
years, cities like my hometown City of Charleston, West 
Virginia, have seen an increase in their homeless shelter 
occupants. While this number continues to grow, we are always 
seeking the solution to make that a smaller number.
    Two comprehensive homeless bills have been introduced in 
the 100th Congress. We are going to be hearing about H.R. 840, 
the Homeless Emergency Assistance and Rapid Transition to 
Housing Act of 2007, introduced by Congresswoman Julia Carson, 
and also my colleague from Kentucky, Congressman Geoff Davis. 
Thank you, Congressman Davis.
    Also, we are going to be talking about, as the two senators 
testified, Senate Bill 1518. The Senate bill was passed 
unanimously on September 19, 2007.
    In addition to these bills, the Administration has recently 
transmitted a legislative proposal to Congress that is similar 
to the bills introduced by Senators Reed and Allard.
    I would like to take this opportunity to commend our 
colleague, Congresswoman Carson, who is not here today, for the 
work she has done on this issue. I am sorry she cannot be here, 
and I hope that she will be feeling better soon, and back 
working with us on this important issue.
    My hope is that this hearing today, and the recent action 
by the Senate, will represent an important step forward in 
determining how best to go about fixing today's serious 
homeless problem. There are many areas of agreement among these 
various legislative proposals.
    For instance--and we have already heard; I am anxious to 
hear the testimony from the other witnesses--general consensus 
among the legislative proposals that consolidation of the three 
competitive grant programs into one program--gee, that just 
happens to make good sense, doesn't it--would be beneficial. 
This consolidation would alleviate the need for HUD to review 
each proposal individually, and could cut the time that it 
takes HUD to make a decision by as much as 3 months.
    Consolidation would also increase local control and 
flexibility. I represent a rural area. We need the flexibility 
to put forth programs that adequately serve our constituents.
    Reauthorization reform of the McKinney-Vento homeless 
program is an important goal. I know that we can certainly 
better address the pressing needs of the homeless across this 
country, and we can do it in a bipartisan manner. I believe 
that the first step to making progress and moving forward is to 
focus more on the areas of agreement and less on the areas of 
disagreement.
    I know that both Congresswoman Biggert and Chairwoman 
Waters are committed to working on comprehensive legislation to 
reform and reauthorize this program, and I want to pledge my 
willingness, as the new ranking member of the Housing 
Subcommittee, to work together with them.
    Thank you, Chairwoman Waters, for holding this important 
hearing, and I look forward to hearing from our witnesses 
today.
    Chairwoman Waters. Thank you very much, Ranking Member 
Capito.
    The lead sponsor of H.R. 840, subcommittee member Carson, 
is unable to join us today, due to health considerations, and 
we certainly wish her a speedy recovery. In the meantime, our 
chairman, Chairman Frank, is here, and I understand he would 
like to deliver a statement on her behalf.
    The Chairman. Thank you, Madam Chairwoman.
    Chairwoman Waters. I recognize the chairman.
    The Chairman. Thank you. Yes, I do have a statement that I 
will read on behalf of our colleague, Ms. Carson, who has 
worked so hard on this:
    Thank you, Chairwoman Waters and Ranking Member Capito, for 
holding this important hearing. I know we share a deep interest 
in eradicating homelessness. I regret not being present today, 
but I am thankful homelessness assistance programs are 
receiving the attention they so desperately deserve.
    ``Today's hearing affirms that working to end homelessness 
is a mission taken very seriously by this Congress. July marked 
the 20th anniversary of the enactment of the McKinney-Vento 
Homeless Assistance Act, but the tragedy of homelessness 
persists. Over 3 million individuals experience homelessness 
every year, and over 1 million of those are children. This is 
unacceptable.
    ``It is in this spirit that I introduce the Homeless 
Emergency and Rapid Transition to Housing Act of 2007. The bill 
would reauthorize McKinney-Vento, programs would provide 
critical transitional housing supportive services, emergency 
shelters, and permanent housing.
    ``The changes reflect the lessons we have learned since the 
last reauthorization in 1994. It addresses the concerns of 
diverse communities with distinct needs but one goal, ending 
homelessness. This would restore local-level decisionmaking on 
homeless priorities, increase the authorization of the program, 
and modify HUD's definition of homelessness, which is outdated 
and exclusive. H.R. 840 ensures more children of families 
receive homeless assistance, by aligning this definition with 
the one used by the Departments of Education, Justice, and 
Health and Human Services.
    ``Local providers know which housing priorities best 
address their unique needs. But currently, severely inadequate 
funding levels, restrictive definitions, and inflexible 
requirements prevent them from implementing housing solutions 
that best suit these needs. Many of the witnesses today are 
local service providers and advocates who face these obstacles 
and H.R. 840 would diminish those hurdles.
    ``My home State of Indiana includes urban, suburban, and 
rural communities, each struggling with different homeless 
dilemmas. In my district, in the City of Indianapolis, more 
than 15,000 individuals experience homelessness each year. In 
this urban setting, it may be best to target housing and 
services towards the homeless who live in the streets for long 
periods of time.
    ``In Jeffersonville, Indiana, however, there was a 
dramatically different picture. Barb Anderson, a witness today, 
serves as the executive director of Haven House Services in 
this rural community, where affordable housing is sparse, and 
the homeless less visible, often living in doubled-up 
situations with relatives, and over-crowded, substandard 
housing.
    ``Under H.R. 840, both Indianapolis and the balance of 
Indiana continuum of care boards would be able to set different 
and more effective priorities. They would be able to address 
all homeless individuals, not just those who meet a narrow, 
federally-mandated definition.
    ``We would like to thank Congressman Geoff Davis for his 
hard work on H.R. 840 and all the cosponsors of the bill. I am 
grateful that so many of my colleagues have invested efforts to 
address homelessness. Congress has been disgracefully slow in 
recognizing and responding to the national crisis of 
homelessness, and we are thrilled that we have the opportunity 
to shed light on this issue today.''
    The Chairman.That is the statement of Congresswoman Carson. 
Madam Chairwoman, I would just add, myself, that I don't think 
it is entirely coincidental that the last time it was 
authorized was 1994, and we are taking it up again today. 
Something happened during the interim period that has changed, 
and that is why we were able to get back to this.
    But I would also note that a very important part of this--
and our colleague, Ms. Carson mentioned it--is permanent 
housing. There is no solution to the homelessness problem, not 
even a serious effort to diminish it, without programs to 
increase the construction of affordable housing for low-income 
people. That is why part of the approach here will be the 
Affordable Housing Trust Fund bill, Madam Chairwoman, which you 
brought out of your subcommittee and out of our committee, and 
which will be on the Floor next week.
    So, I do say yes, we need the services. This is underlying 
some of the problems, and we have different agencies involved. 
We are going to, I hope, move forward on this under your 
leadership, Madam Chairwoman, but part of the solution to this, 
or part of the effort to alleviate, as I said, will be an 
increase in the supply of housing.
    The central problem of homelessness is they don't have 
homes, those people. And they all used to, by the way. None of 
them were born on Mars, and came here, and never had a place to 
live. So we need to restore people to homes. And we can't do 
that, unless we increase the stock of affordable housing. So 
that is our approach.
    Thank you, Madam Chairwoman, for your interest.
    Chairwoman Waters. Thank you very much, Mr. Chairman. I 
will now recognize the gentlelady from Illinois, Mrs. Biggert, 
for 3 minutes, for an opening statement.
    Mrs. Biggert. Thank you very much, Madam Chairwoman. And 
thank you and the ranking member for holding this very 
important hearing on the reauthorization of McKinney-Vento.
    I would like to just comment on the remark from our 
chairman. I think that, starting with Congressman Lazzio, there 
were repeated efforts to bring this issue up which met with 
resistance not so much from the Congress but from the advocacy 
groups which were not in agreement. So, hopefully, this can be 
worked out this year, and we will find a result. But it is not 
for lack of trying that there hasn't been a reauthorization 
since 1994.
    And I would also like to echo the remarks of my colleague 
from West Virginia, Ranking Member Capito. And, again, I would 
like to congratulate her on her new position. As far as shoes 
are concerned, I wear a size six, so I think I have small shoes 
to fill. I think you will do very well.
    And second, I would like to note that McKinney-Vento is not 
a new issue to me. Back when I was in the State legislature, I 
worked with a wonderful colleague, Mary Lou Cowlishaw, on her 
bill to educate homeless children in Illinois. And during my 
first year in Congress, I introduced H.R. 623, the McKinney-
Vento Homeless Education Act of 2001. This bill was to allow 
homeless children to be immediately enrolled in school, so that 
they would have at least one stable environment and that was 
education.
    This bill was included, the language was included, in the 
definition of homeless children which was eventually 
incorporated into a small bill which is up for reauthorization 
in Congress this year, and that's the No Child Left Behind 
bill.
    But this leads me to my request. I think that--I hope that 
the witnesses will focus today, in particular, on the 
definitions that the Department of Housing and Urban 
Development uses for the homeless and chronically homeless. Do 
they make children a priority? I know the definitions do not 
harmonize with those used by the Department of Education, and I 
fear the HUD definition may allow children to fall through the 
cracks, and wander like nomads to hotels, to campgrounds, to 
cars, and to friends' homes, leaving them homeless and in a 
very unstable living environment.
    So, focusing on the housing needs of homeless children is 
my number one priority, and I am grateful to my colleagues from 
both sides of the aisle who share this sentiment. In 
particular, I would like to thank Congresswoman Julia Carson, 
and I'm sorry she can't be here today. I would also like to 
thank Congressman Geoff Davis for his hard work on helping 
homeless children.
    I look forward to hearing from the witnesses today, and I 
yield back the balance of my time.
    Chairwoman Waters. Thank you very much, Congresswoman. I 
will now recognize the gentleman from Texas, Congressman Green.
    Mr. Green. Thank you, Madam Chairwoman. And thank you for 
what you have done through the years to help those who are less 
fortunate. Before I came to Congress, I had an opportunity to 
know of your great reputation, in terms of helping the 
powerless. You have truly been hope for the hopeless, help to 
the helpless, and power for the powerless. So I thank you for 
what you have done through the years.
    I want to thank the ranking member, as well, Ranking Member 
Capito. I have had the opportunity to--by way of hearsay, which 
is good, because reputation evidence is hearsay--get some 
evidence as to where you stand on these issues. And my belief 
is that you have a good reputation, and I look forward to 
working with you. I always thank the chairman of the full 
committee, especially for what he is doing now to help us 
arrive at a housing trust fund.
    Madam Chairwoman, it saddens me greatly when I look at the 
scope of this problem, the length and breadth of it, because we 
live in a country where we have houses for our cars--houses for 
our cars. They're called garages. And yet, we have 3.5 million 
people, approximately 39 percent of whom are children, whom, 
each year, are likely to experience some homelessness.
    It really hurts my soul to know that I live in a country 
where we can spend $229 million per day--not per year, not per 
week, not per month, but per day--on a war, and on any given 
night, we have 700,000 to 800,000 men, women, and children who 
are without homes. It really saddens me to understand the 
length, width, and breadth of this problem.
    And so, I would like to let people know that, in my 
hometown of Houston, Texas, in Harris County, the problem is 
one that I am hopeful we will have an opportunity to impact 
with this legislation. The numbers are so shocking that I think 
they ought to be stated for the record.
    In Houston, Harris County, among the homeless we have: 28 
percent veterans; 66 percent have no income; 59 percent lost 
housing as a result of a lost job; 57 percent have a history of 
substance abuse; 55 percent have a history of mental health 
problems; and 11 percent have experienced domestic violence.
    And if I may, I would like to emphasize the domestic 
violence aspect of this. We must provide transitional housing 
for every victim of domestic violence, most of whom are women, 
who find themselves on the street because they cannot coexist 
in the same space with a spouse or a significant other.
    Twenty-four percent have been incarcerated. So this is a 
most timely hearing, because we are going to do what we can to 
help those who are living, literally, in the streets of life. 
The well-off, the well-heeled, and the well-to-do seem to fare 
well; it's the least, the last, and the lost that we must give 
special attention to with reference to housing. So, I thank 
you, Madam Chairwoman. I look forward to these hearings, and I 
yield back the balance of my time.
    Chairwoman Waters. Thank you very much. I recognize the 
gentleman from Connecticut, Mr. Shays, for 2 minutes.
    Mr. Shays. Thank you very much, Madam Chairwoman. I want to 
thank you for convening this hearing, and for your reaching out 
to both sides of the aisle on this very important issue.
    My predecessor was Stewart McKinney. He put his country 
first. He put his State first. He put his district first, first 
before everything, even his own life. He was asked one time why 
he served on the Banking Committee. He said, ``I don't serve on 
the Banking Committee, I serve on the Housing Committee.'' It 
was his passion, it was his love, and he is the reason we are 
here today.
    His son, John McKinney, will be our first witness, and I 
just want to say that his dad would be so very proud of him. 
He, like his father, is the minority leader of the Senate. His 
dad, 40 years ago--or 38 years ago--was the minority leader of 
the State house. I can just say about this witness that he is 
extraordinarily intelligent, and very capable. I consider him a 
close friend, and a close advisor, and I am just very grateful 
that he would spend the time here today, and that he would be 
invited to be here.
    Let me just quickly say about the issue, I am most 
interested about this bill about getting homeless people to be 
able to have their own place to live. I stay at shelters and 
spend the night. I don't tell the press when I'm there, but 
I've gotten to know so many homeless people, and there is very 
little difference between them and any other American, except 
they have had some rough things in their lives.
    I would just conclude by saying to you that I also welcome 
Deborah DeSantis. She has just hired away one of the most 
capable and talented staff members on the Hill, and he is just 
a truly good person and a good friend of mine. He is a member 
of my staff for another week, and I congratulate you for 
getting the best and the brightest in Jordan Press. Thank you, 
Madam Chairwoman.
    Chairwoman Waters. You are certainly welcome. Thank you. 
And I will now recognize the gentleman from Kentucky, who has 
been identified as someone who has not only worked for and on 
behalf of homeless children, but has been dedicated to this 
issue for quite some time, Representative Davis.
    Mr. Davis. Thank you, Chairwoman Waters. We have come a 
long way this year, so I would like to start out with a few 
acknowledgments. First, thank you for holding these hearings on 
homelessness, and the reauthorization of McKinney-Vento. This 
issue is in need of discussion in a public forum, and I truly 
appreciate your commitment to this effort.
    Unfortunately, Julia Carson is not with us today. I know 
she wishes she could be here, and I would ask all of you to 
keep her in your prayers, as she is recovering. I know she is 
excited to get back to D.C. and keep working on this issue. She 
has been a tremendous force behind the HEARTH Act.
    Moreover, I would like to recognize Hillary Swab and 
Kathleen Taylor, her two professional staffers, who have worked 
on this bill over the past year, and really deserve a lot of 
credit, as well, along with the outstanding efforts of Lauren 
O'Brien, my staff professional for housing issues.
    Lastly, I would like to recognize Linda Young, from Welcome 
House of Northern Kentucky. I am thrilled that she was able to 
make it to D.C. today to testify about her hands-on experience 
with this issue. My wife, Pat, and I have worked with families 
in crisis for the last 25 years. I have known Linda in this 
capacity since before I was elected to Congress. She has 
inspired me with her tireless dedication and innovative 
strategies to make most of the resources available to improve 
the quality of life for, literally, thousands of my 
constituents every year.
    As a fiscal conservative, I fully support the Federal 
investment and homeless assistance grant programs. A roof over 
one's head goes a long way, but it is truly the more holistic 
approach of support services, combined with housing, that have 
the biggest impact on changing a person's path in life.
    These programs lend a helping hand to people who want to 
build a future and pursue a dream. This type of Federal 
assistance has a lasting impact, not only on the recipient, but 
on our communities, as a whole.
    I am sure everyone here is familiar with the HEARTH Act, 
and I know many of the witnesses will discuss it in their 
testimony, so I won't go into the details. However, I want to 
point out briefly the two parts of HEARTH that I think are the 
most critical: the alignment of the definition of homelessness 
with the definition used by the Department of Education; and 
the increase in local flexibility.
    This is about acknowledging that homelessness looks 
different in different parts of the country. Homelessness has 
many faces that, for the most part, are invisible to the public 
at large, though it is all around us. These people need and 
deserve our help. So why don't we let the people who best know 
the local situation make the majority of the decisions about 
how that money would be spent?
    I hope we can all agree after this series of hearings that 
this method is in the best interest of our constituents, and 
will be the most effective at decreasing all types of 
homelessness. With that, thank you, Madam Chairwoman, and I 
yield back.
    Chairwoman Waters. Thank you very much. Mr. Cleaver, would 
you like to have a few moments?
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Chairwoman Waters. To share with us your thoughts on this, 
Mr. Cleaver? Thank you.
    Mr. Cleaver. In the interest of time, I will hold my 
comments until the time for questioning.
    Chairwoman Waters. Thank you very much. With that, we are 
going to introduce our witnesses on our second panel. Even 
though Mr. Shays almost introduced his very special witness 
here today, I am going to recognize him to introduce Senator 
John McKinney of Connecticut.
    Mr. Shays. Well, I have really said what I need to say 
about this exceptional young man, and so I will just say, John, 
it's really an honor to have you here, a real privilege. I just 
think that one time I had an opportunity to walk with your dad 
to a hearing. He always showed up before the hearings started. 
And it was just fun to be here, and just look out and see you 
there. Welcome.
    Chairwoman Waters. Thank you very much. The other witnesses 
on this distinguished panel today are: Ms. Maria Foscarinis, 
executive director, National Law Center on Homelessness and 
Poverty; Ms. Deborah DeSantis, president and executive officer, 
Corporation for Supportive Housing; Ms. Barbara Anderson, 
executive director, Haven House Services; and Ms. Pittre 
Walker, homeless liaison, Caddo Parish School Board.
    I thank you all for being here today. Without objection, 
your written statement will be made part of the record. You 
will now be recognized for a 5-minute summary of your 
testimony. With that, we will start with Ms. Foscarinis.

STATEMENT OF MARIA FOSCARINIS, EXECUTIVE DIRECTOR, NATIONAL LAW 
                CENTER ON HOMELESSNESS & POVERTY

    Ms. Foscarinis. Thank you very much, Madam Chairwoman, for 
inviting me to testify here today. I am the executive director 
of the National Law Center on Homelessness & Poverty. We are a 
nonprofit legal advocacy group working to end homelessness.
    I want to thank you, Madam Chairwoman, for holding this 
very important hearing, and I want to also thank the ranking 
member, Congresswoman Capito, for holding this hearing. It's a 
very important hearing on a very urgent topic at a very 
critical time. It is the 20th anniversary of the enactment of 
the McKinney-Vento Act, and this is a bittersweet anniversary, 
as a number of people have mentioned. And if anyone would like 
a bittersweet chocolate bar, we still have some left in our 
offices, and we will be happy to make them available.
    I want to start with just a little bit of history, because 
I am a veteran of the original campaign to enact McKinney-Vento 
20 years ago, and I never thought I would still be here, 
working on this issue today.
    Homelessness is a crisis that has not always been with us. 
It began to explode in the early 1980's, in a very dramatic 
fashion, affecting not only the single men in inner cities that 
it had affected previously, but also affecting many families, 
many children, in suburban areas and rural communities, as 
well. So, this is a crisis that not only does not have to be in 
a country with our resources, it also has not always been with 
us. We need to remember that, because I think we need to keep 
focused on ending and preventing homelessness.
    The McKinney-Vento Act had its origins in a comprehensive 
piece of legislation that was introduced in Congress in 1986. 
That legislation had three parts: an emergency part, to address 
the immediate needs of homeless people; a prevention part; and 
a long-term solutions part.
    The McKinney-Vento Act, through an extraordinary campaign, 
became law and was signed into law in 1987. It was part one. It 
was the emergency part only of the original legislation that 
had been introduced. Part two and part three, prevention and 
long-term solutions, have yet to be enacted.
    This was an extraordinary campaign. It involved sleep-outs, 
including Members of Congress, most significantly including 
Congressman McKinney, who really was an extraordinarily 
committed person, and an inspirational person, as was 
Congressman Vento.
    At the time that McKinney-Vento was passed, Congress 
explicitly stated--and there are many statements in the 
Congressional Record by many Members, bipartisan statements, 
about this being a first step only, and it was a first step to 
respond to the immediate crisis. It was never intended to be 
the final step. It was to be followed by longer term solutions. 
In fact, the McKinney-Vento Act has been the major response to 
homelessness since that time. And the remaining steps have yet 
to be enacted.
    That is not to say that there haven't been changes. There 
have been a lot of changes since 1987, and there have been 
improvements to the Act. There have been expansions of the Act, 
very significant expansions. There have been some movements 
towards longer-term solutions, but not at the scale, and not in 
the way that is needed, or was initially envisioned.
    There has not been a reauthorization since 1992. Instead, 
changes have been made to the Act through the appropriations 
process, as well as through the regulatory process, primarily 
through HUD. And I am talking now about the HUD McKinney 
programs. I think it is very critical that the legislation be 
reauthorized, and I think it is also very critical it be 
improved.
    This is really an opportunity to change the legislation to 
reflect current realities, current knowledge, and current best 
practices, and to make a really important step towards keeping 
that 20-year-old promise of putting in place permanent 
solutions to end and prevent homelessness, to go beyond those 
emergency steps.
    I think there are a number of pieces of legislation now 
that are very significant. My organization has endorsed the 
HEARTH Act. I think the Senate piece has--a lot of people have 
worked very hard on that, and it has some very important 
provisions, as well. I am just going to summarize the key 
points that are important to us.
    I think aligning the definition of homelessness, to make it 
consistent with the Department of Education definition, is very 
important. And that is something that the HEARTH Act does.
    I realize--we recognize--that the current programs are 
very--are terribly oversubscribed, and there is an argument 
that expanding, or changing the definition, would add to that. 
I think, for this reason, it is very important to also increase 
the resources. And the HEARTH legislation does increase, as 
does the Senate counterpart, increase the authorized levels 
very significantly. Still not sufficient, but a very 
significant step forward. And that, I think, is also a critical 
part of the legislation.
    Another critical piece, which is in the Senate bill but is 
not currently in the HEARTH legislation, concerns renewals. 
There are Section 8 vouchers associated with the HUD McKinney 
programs to--
    Mr. Cleaver. [presiding] I am going to ask you to wrap it 
up. We allotted 5 minutes.
    Ms. Foscarinis. Okay.
    Mr. Cleaver. Thank you so much.
    Ms. Foscarinis. May I just--
    Mr. Cleaver. Yes, yes, please.
    Ms. Foscarinis. Okay. The renewal--to have the renewal 
provision through the Section 8 program, as in the Senate 
legislation, I think, is critical. The continuum of care 
process, where all stakeholders come together is also very 
critical. It is very important to keep that in there.
    Lastly, discouraging cities from criminalizing 
homelessness, which is in the HEARTH Act through an incentive 
process is very important to protecting people's rights and 
putting in place cost-effective solutions to homelessness. 
Thank you.
    [The prepared statement of Ms. Foscarinis can be found on 
page 68 of the appendix.]
    Mr. Cleaver. Thank you very much. Mr. Shays, would you like 
to, again, introduce Senator McKinney?
    Mr. Shays. You know, this has never occurred in the history 
of this place, John, that someone has been introduced three 
times. So I will spare you any further introduction or 
embarrassment.
    He, actually, is a very humble guy, so this must drive him 
crazy. John, welcome.
    Mr. Cleaver. Senator, thank you for being here with us.

STATEMENT OF THE HONORABLE JOHN McKINNEY, STATE SENATOR, STATE 
                         OF CONNECTICUT

    Mr. McKinney. Thank you, sir. And I want to thank 
Chairwoman Waters, Ranking Member Capito, and the members of 
the subcommittee for holding these hearings, and for giving me 
an opportunity to testify in support of a bill and a cause that 
is near and dear to my heart.
    I also want to pay special mention to my good friend and my 
Congressman, Chris Shays, and thank him for his leadership on 
this issue.
    I am here today simply because I believe, as my father 
believed, that every American has the right to a home. I am 
here today to ask you to reauthorize the McKinney-Vento 
Homeless Assistance Act, and expand our Federal Government's 
role in the fight to end homelessness in America.
    In 1986, my father helped craft, and Congress ultimately 
passed, legislation we know now as the McKinney-Vento Homeless 
Assistance Act. It was the first major coordinated Federal 
response to homelessness in our Nation's history. While it was 
an important first step, it was just that, a first step. We 
were supposed to do more. We have not followed through on the 
promise to do more to combat homelessness. Reauthorization of 
the McKinney-Vento Homeless Assistance Act by this Congress 
will get us back on the right track, and help fulfill the 
promises made 2 decades ago.
    Over those past 2 decades, the face of homelessness has 
changed. It is no longer only single men or the mentally ill 
who are sleeping on our streets or inhabiting emergency 
shelters. Today, it is all too common to see mothers and their 
children, entire families, arrive at an emergency shelter in 
need of a place to sleep.
    Another dramatic change has occurred over the last 20 
years. We no longer need to manage homelessness; we can end it. 
In Connecticut, we are working on doing just that, ending 
homelessness. And the problem is real in our small State. A 
point of time survey that was done this past winter, which was 
the first coordinated statewide survey done in the State, found 
an estimated 3,300 people who were homeless on one night of 
January 30th. Of those, almost 400 were families.
    In my own hometown of Fairfield, Connecticut, an affluent 
suburb of 60,000 people where the average home price is 
$750,000, we see our own problems with homelessness. Operation 
Hope, which is a local nonprofit agency providing innovative 
solutions to homelessness, reports that the people calling in 
need of shelter and housing has been rising steadily. In the 
last 6 months alone, over 500 people have called in need of 
immediate shelter, and almost 100 others have called in need of 
support services, and are at risk of homelessness. This is on 
top of the dozens and dozens of people they serve in their 
support services every day.
    In Connecticut, we have been leading in supportive housing. 
To date, there are 3,000 units of permanent supportive housing 
that have been created or are in the pipeline, and McKinney 
funding has been a critically important part to this 
development. State and local funds have been used to leverage 
Federal dollars, including McKinney funding, to pay for 
supportive housing.
    McKinney funding allocated by HUD is not enough, however. 
While in the late 1990's, these funds sparked new development 
of supportive housing, today the funds only cover the expenses 
of keeping current housing open. Communities aren't getting a 
boost in funding to ensure the continued operation of current 
housing stock, and to inspire new locally-determined 
developments.
    While renewal grants are important, we need new funding to 
jumpstart the next phase of supportive housing development. In 
my hometown of Fairfield--let me give you an example--Operation 
Hope used McKinney funding from HUD to open up six units of 
supportive housing for families and six units for single adults 
between 1999 and 2001. These homes still receive HUD funding 
for operating and supportive service costs, but the HUD funding 
is no longer available for future developments. Operation Hope 
has been able to develop the next 12 units, but they have had 
to do so without HUD funding.
    The model developed by Operation Hope--non-urban, scattered 
site development--works well for communities and people who are 
homeless. Integrating supportive housing directly into thriving 
neighborhoods is the best way to help families who were once 
homeless in a way that will enrich the communities around them. 
This model is especially good for children, who benefit from 
seeing their parents maintain their households and get up and 
go to work like everyone else in the neighborhood.
    But we need new capital funding to spur development. While 
the State of Connecticut has tried to pick up the slack, our 
current efforts are over-subscribed. There are many more 
developments proposed than there is money to cover them. Our 
goal in Connecticut is to end homelessness by the year 2014 
through the creation of 10,000 units of supportive housing. We 
have done 3,000, and we have 7,000 units to go. We need help. 
We need Federal dollars, combined with State and local funds, 
to make this a reality.
    This is an important and fiscally smart investment of 
Federal funds. It is an investment in a proven model, a better 
investment than the current emergency shelter system, 
consisting only of emergency rooms, jails, and shelters.
    Imagine if we could take those 100 people who are on the 
service wait list on Operation Hope, or the 500 people who are 
in need of emergency shelter, and provide them with financial 
assistance and support services to prevent them from ever being 
evicted, to prevent them from being homeless. Think of the 
consequences of that emergency aid. Children would get to stay 
in their homes, their schools, their neighborhoods. Their 
parents would be less stressed, more steady, and thinking and 
planning for the future.
    Local agencies like Operation Hope can help these families, 
but the financial assistance piece is critical. If we don't 
have financial support, there is no ending the crisis of 
homelessness. With authorization of the McKinney Act, we will 
continue to change and improve the lives of millions of people 
in this country.
    In closing, let me touch upon two specific issues in the 
legislation before you. First, regarding the permanent housing 
set-aside, Congress has long directed HUD to dedicate at least 
30 percent of funds appropriated for permanent supportive 
housing. It would be a mistake to remove this set-aside. 
Legislation reauthorizing McKinney-Vento should codify the 30 
percent set-aside, because supportive housing has been highly 
successful in providing assistance to homeless individuals.
    Local organizations throughout the State of Connecticut 
have made incredible use of these funds. Maintaining the set-
aside will help meet the critical needs of people, including 
those disabled by chronic health conditions or long-term 
substance abuse problems. It will also help families with the 
greatest challenges to stability, who are often not receiving 
any help from other Federal programs.
    Second, I want to address the definition of homeless, which 
some have proposed broadening to include individuals and 
families who are living in doubled-up situations and motels.
    While it is certainly admirable to want to address all 
people who are in need, I am concerned that this could lead to 
a thinning of resources. Changing the definition could divert 
resources from those with disabilities who are least likely to 
seek help or fend for themselves, if many more people are 
competing for the resources provided by the homeless assistance 
grant programs. I do not think any of us want to see the most 
troubled and sick homeless get pushed to the back of the line.
    Again, it is a great honor for me to be here. My father 
campaigned vigorously 20 years ago to end homelessness. I think 
it is time for us and our Nation to help bring this issue back 
to the forefront of political discourse and into American 
consciousness. He would be delighted to know that, while 20 
years ago we were struggling for funds to help manage 
homelessness, today we know we can end homelessness. And I want 
to thank you, Mr. Chairman.
    [The prepared statement of Senator McKinney can be found on 
page 74 of the appendix.]
    Mr. Cleaver. Thank you, Senator. We appreciate very much 
your willingness to give of your time to be with us today.
    Next, the CEO and president of the Corporation for 
Supportive Housing, Ms. Deborah DeSantis.

 STATEMENT OF DEBORAH DeSANTIS, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, CORPORATION FOR SUPPORTIVE HOUSING

    Ms. DeSantis. Thank you. My name is Deborah DeSantis, and I 
am president and CEO of the Corporation for Supportive Housing. 
CSH is a national nonprofit helping communities create 
permanent, affordable housing linked to services that prevent 
and end homelessness. We have worked for more than 15 years to 
help community-based nonprofits and local and State governments 
develop and operate permanent supportive housing.
    I would like to thank Subommittee Chairwoman Maxine Waters 
for committing her leadership to the important issue of ending 
homelessness. I would like to also acknowledge Representative 
Carson and other members of this subcommittee who took an early 
interest by introducing H.R. 840, the HEARTH Act.
    CSH is also pleased that the Senate Banking Committee has 
passed a comprehensive bipartisan bill, S. 1518, to reauthorize 
the McKinney-Vento programs. And let me also say it is an honor 
to speak on behalf of McKinney reauthorization, along with 
Connecticut State senator John McKinney, whose father is 
rightly recognized for his leadership and passion in responding 
to our Nation's crisis of homelessness.
    Twenty years after the passage of the McKinney Act, the 
need for McKinney-Vento resources remains great. Over 200,000 
individuals with disabilities experience homelessness on a 
repeated or chronic basis. By our conservative estimates, the 
cost to taxpayers of maintaining homelessness, particularly 
chronic homelessness, totals between $5 billion and $8 billion 
a year.
    Despite its tragic and costly consequences, the persistence 
of homelessness has allowed us to explore causes of 
homelessness and test solutions. This research supports the 
recommendations I am making today.
    First, I urge the reauthorization legislation to include a 
30 percent set aside for permanent housing, for homeless 
households with one or more disabled persons. For those 
homeless individuals and families who confront chronic health 
conditions and suffer, or are at risk of suffering long-term or 
repeated bouts of homelessness, permanent supportive housing is 
the only intervention proven to end costly cycling between 
systems.
    Studies indicate that providing permanent housing with 
services to those with disabilities allows more than 80 percent 
of residents to remain stably housed after 1 year, decreases 
tenants' emergency room visits by more than 50 percent, and 
increases tenants' income by 50 percent, resulting in cost 
savings of about $16,000 per housing unit per year.
    Based on the success of permanent supportive housing, 
congressional appropriators, on a bipartisan basis, have 
imposed a 30 percent set-aside for permanent housing for the 
past 9 fiscal years. In 1998, the year before the 30 percent 
set-aside, only 13 percent of McKinney money was dedicated to 
permanent housing.
    While significant McKinney-Vento resources have been 
invested in new permanent supportive housing since Fiscal Year 
2000, the overall funding available for other interventions has 
not plummeted. In fact, it has increased by $50 million.
    Further, people experiencing chronic homelessness are more 
likely than other McKinney-Vento-eligible populations to be 
excluded from other safety net programs. Indeed, the average 
national rent for an efficiency 1-room bedroom apartment of 
$715 is more than the monthly income a disabled person receives 
on SSI. In such circumstances, it is appropriate for Federal 
policy to provide this population with some priority.
    Second, CSH recommends expanding the definition of chronic 
homelessness to include families where a head of household 
suffers from a disability, and has been homeless repeatedly or 
continuously. About 12,000 to 15,000 households of families 
with children are homeless for 2 or more years. These families 
experience chronic or long-term homelessness, but are not 
recognized as such under current definition.
    Third, CSH supports a prudent expansion of the definition 
of homelessness. Legislation should recognize the reality that 
many homeless people do not live on the streets, but in 
hospitals, treatment facilities, or jail. These previously 
homeless individuals should be considered homeless, too.
    Additionally, individuals or families at risk who have 
moved three or more times in the past year, living off of 
temporary motel vouchers or with a relative or friend on a 
short-term, unstable basis should be considered homeless.
    However, we have great reservations about expanding the 
definition of homelessness, as suggested in H.R. 840. While we 
agree housing affordability is at the root of homelessness, we 
believe other programs are better equipped to address our 
country's housing affordability crisis. The Financial Services 
Committee recently completed work on legislation to strengthen 
and expand the Section 8 housing voucher program and to 
establish a national housing trust fund.
    Also, S. 1518 creates a new grant program to keep families 
and individuals from becoming homeless.
    Once again, I thank you for the opportunity to offer my 
testimony. I applaud you for the ambitious undertaking at this 
hearing and for responding to the homelessness and housing 
needs of America today. Thank you.
    [The prepared statement of Ms. DeSantis can be found on 
page 60 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Anderson?

STATEMENT OF BARBARA ANDERSON, EXECUTIVE DIRECTOR, HAVEN HOUSE 
                            SERVICES

    Ms. Anderson. Good morning, Chairwoman Waters. I want to 
share with the subcommittee a book Kathleen has, that I think 
she is going to be passing out shortly. It's a book of 
photographs of people in my community who have experienced 
homelessness. I share it to remind you that the public policy 
you make affects the lives of ordinary Americans.
    As we get into the weeds of writing law, we don't need to 
forget that it is our neighbors, family members, and indeed, 
ourselves who are the true subjects of this hearing. Each of us 
may experience homelessness at any given time. As a young 
student in a community that is very small and rural, I had to 
live in a car and in garages to be able to graduate from 
college.
    When I began my career as a social worker in 1979, the only 
person I can recall being homeless in my community was the man 
they called Herbie, and he was affectionately known as ``The 
Town Drunk.'' Four years later, Congress and the President 
enacted massive budget cuts that decimated Federal social 
programs. I watched those incidences of homelessness from a 
very practical level, not from a policy level.
    The consequences for countless of Americans and countless 
neighbors was that over those 2 decades, night after night of 
sleeping in shelters with dozens of strangers occurred. People 
slept in the woods, hidden from sight, on the couches of 
grudging relatives, and in roadside motels that lacked 
kitchens. I have even pulled people out of chicken coops and 
barnyards.
    Last night at our shelter, we provided 78 people with a 
temporary place to sleep. Our facility is suitable for 60 
people. Of those 78, 23 were children. They do not meet the 
Federal guideline for chronic homeless. Twenty-seven have full-
time employment. They are working poor people. They do not meet 
the definition for chronic homeless. Thirteen work in day 
labor, because suitable work on a nomadic lifestyle is hard to 
find. Fifteen have disabilities.
    We serve all comers, disabled and working poor, single 
adult, and families with children. We are the only shelter 
serving 14 counties, so we have urban and rural--and many, many 
rural.
    As a board member of the National Coalition for the 
Homeless, with colleagues from across the country, I can tell 
you there are serious flaws just within McKinney-Vento itself. 
In 20 years, the evolution of the program has not kept up with 
the pace of the population outburst.
    Take, for example, the definition. It is antiquated. 
Congress has modernized the definitions used by other Federal 
programs to include a more complete set of living arrangements, 
yet HUD has stubbornly clung to this definition, because an 
undercount better serves the definition.
    We can't ignore the numerous people in this country who 
have 19 and 20--I have visited families who have 19 and 20 
people living in a 2-bedroom home, with only 1 person on the 
lease. Those families are homeless, and they have no options 
but to be cluttered and on top of each other with all the 
social ills that go with that, including domestic violence and 
abject poverty, and sometimes burglary, and whatever else 
happens for them to make it. And it is a crime that we allow 
that to happen. We call on Congress to amend the HUD definition 
of homelessness following the HEARTH Act language.
    Then there is the Administration's chronic homeless 
initiative, the set-asides and the permanent housing bonuses. 
The national directives have resulted sometimes in a 
concentration of resources on permanent supportive housing to 
the cost of those of us who are trying to build in small 
communities with very few resources to build any kind of 
housing.
    The HEARTH Act restores flexibility to communities to 
select a set of eligible activities that best responds to their 
individual and greatest needs, rather than dictates from 
Washington. The National Coalition for the Homeless supports 
the HEARTH Act. It addresses the above concerns and many other 
grievances.
    We call for Congress to authorize and appropriate at least 
$3 billion annually for HUD and McKinney-Vento programs, and we 
don't need to stop there. Congress should authorize and 
appropriate funds for a homeless prevention initiative outside 
of the McKinney-Vento program, because every penny that is in 
HUD and McKinney-Vento is needed there.
    We also urge Congress to authorize and appropriate funds 
for a rural homeless assistance program through the U.S. 
Department of Agriculture, where field sites are located in 
communities throughout this country, and where the true rural 
needs of rural America can be met with people who understand 
rural homelessness.
    Homelessness is our national shame and our global 
embarrassment. It is also a personal and family tragedy to over 
3 million Americans every year, including the people in the 
book that Kathleen has passed out. These are people depicted in 
photography from my small piece of America, Jeffersonville, 
Indiana. In their honor, we must recognize housing as a basic 
human right, and ensure all Americans' access to it.
    We must adopt universal health insurance. We must demand a 
labor agreement in which all people earn or receive an income 
sufficient to obtain affordable housing. We must assure the 
civil rights of all persons, housed and homeless, to 
participate freely in the life of their community. And it is 
time for us, with Congress in the lead, to bring America home. 
Thank you.
    [The prepared statement of Ms. Anderson can be found on 
page 48 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Walker?
    Ms. Walker. Good morning.
    Chairwoman Waters. Good morning

  STATEMENT OF PITTRE WALKER, HOMELESS LIAISON, CADDO PARISH 
                          SCHOOL BOARD

    Ms. Walker. Chairwoman Waters, and members of the 
committee, I would like to thank you for the opportunity to 
appear before you today to speak to you about something that is 
very dear to my heart.
    For the past 9 years, I have served as the homeless liaison 
for Caddo Parish School Board in Shreveport, Louisiana. I am 
also a board member of the National Association for the 
Education of Homeless Children and Youth, and the Louisiana 
Association for the Education of Homeless Children and Youth.
    I will focus my comments today on the youngest victims of 
homelessness, our Nation's children and youth. Homeless 
children suffer physically and emotionally. Infants and 
toddlers who are homeless are at risk of developmental delays. 
Homeless children and youth are diagnosed with learning 
disabilities at a much higher rate than other children. They 
struggle academically, and fall behind in school.
    Unfortunately, children and youth have not been a focus of 
the Federal homeless policies, except in the area of education. 
We are extremely grateful for the leadership of Congresswoman 
Judy Biggert, who has worked on the education provisions of 
McKinney-Vento and has increased the stability and success of 
homeless children and youth in school. Educators have learned 
that without the involvement and cooperation of the community 
service providers, educational efforts are much less likely to 
succeed.
    A child without housing faces greater barriers to academic 
success than just the barriers that exist within the classroom. 
One of these barriers is the current HUD definition of 
homelessness. Many people have no choice but to stay 
temporarily with other people, or in motels, often in 
overcrowded and unsafe circumstances. In many places across the 
country, there are no shelters, or shelters may be full, or 
have restrictive requirements, forcing people to stay in other 
homeless situations.
    On the other hand, the education definition of homelessness 
includes families doubled up, tripled up, or living in motel 
situations. This allows me to serve children and youth who lack 
housing enroll in school, and obtain educational-related 
services. Last year, Caddo Parish identified and enrolled 2,031 
homeless children and youth in grades K through 12. Of those, 
1,232 were doubled up, and 72 lived in motels. Thus, 64 percent 
of homeless children and youth in my parish are not eligible 
for HUD homeless assistance services.
    Since 1999, Caddo has received a HUD assistance grant to 
provide case management services for Caddo and six rural areas 
in our community for homeless families. But I can only help a 
fraction of those who truly need assistance, because of the HUD 
definition. For these reasons, I strongly support the 
definition of homelessness contained in the H.R. 840, the 
HEARTH Act. In my community, this definition of homelessness 
will allow service providers to meet the needs of all families 
that are experiencing homelessness.
    Unfortunately, the definition of homelessness in the Senate 
bill, S. 1518, is not adequate to meet the needs of the 
families we serve on a daily basis. For families who are 
doubled up or in motels that are not paid by government, 
multiple moves must occur before assistance can be provided.
    Just last Friday, I received a call from a mother of three 
who was at the food stamp office. This mother was in crisis, 
crying over the phone, and needed somewhere to stay. She had 
been to several different places, and could not find any help. 
Shelters were full. So, at that point, I decided to use my own 
credit card, and put that family up in a hotel, so that those 
children could have a place to stay. And to this day, they are 
still on my credit card in a hotel.
    It is my desire that every child have a home. So, 
therefore, I said we must work diligently to assure that all 
families that are experiencing homelessness have a home and 
services provided to them, to assist them in meeting those 
needs.
    I am not a government official. Would that person be able 
to meet the HUD definition, with me putting my credit card up, 
and receive HUD services? I say no. But, in order for that 
family to have some stability and some place to say, that was 
something we had to do. And, as liaisons throughout the Nation, 
we do what we have to do, in order for families to be able to 
feel safe and secure in their living situation.
    I say to you they are usually emotionally a wreck. These 
children had not slept in days. They were sleeping on a floor 
with roaches and rats, and I went to the house where they were, 
and they were actually put out from that place, when they were 
at the food stamp office. I say to you, we must--we cannot look 
at ending homelessness without looking at our families. We must 
address the needs of our families.
    It is hard for children to be stable in school. It is hard 
for them to academically succeed without a place to stay.
    I have other concerns about the Senate bill and current 
policies that are described in my written testimony. But I say 
to you today, as long as the needs of children and youth are 
not recognized, we will never end homelessness. I believe the 
HEARTH Act provides a stronger approach to reauthorization.
    I thank you again for this opportunity to present to you 
today.
    [The prepared statement of Ms. Walker can be found on page 
129 of the appendix.]
    Chairwoman Waters. Thank you very much. I would like to 
thank all of our panelists who have come here today to help us 
formulate public policy on homelessness.
    Now, unfortunately, as we do this working committee, voting 
is going on, on the Floor. If you heard those bells ring, it 
means that it is time for us to get up to the Floor and take 
some votes. There are 6 votes, 45 minutes at the most. We are 
going to have to leave, go up and do that. We will be back, and 
we will start our questions. So you will have an opportunity to 
stretch your legs, get some refreshments, and meet us back here 
in about 40 minutes. Thank you.
    [Recess]
    Chairwoman Waters. Thank you very much for your patience. 
The committee will come to order. Our members will be returning 
shortly.
    I will recognize myself for 5 minutes and begin the 
questions. I think I will start with Ms. Walker. One thing that 
jumped into my mind when you told the heartbreaking story of 
the family that you are personally going to such great lengths 
to help is, where is the TANF system in all of this?
    Now, let me be clear that I was not a supporter of the so-
called welfare reform of 1996, but TANF funding is at least 10 
times McKinney funding in any given year. It is funding for 
which chronically homeless individuals are typically eligible. 
I wonder whether this family, and others who are doubled up or 
precariously housed, are receiving any TANF funds, or whether 
your State is targeting TANF dollars toward housing.
    If not, can you tell me what the obstacles are? I just 
wonder why the TANF funds were not available for that family. 
Could you help me to understand, or all you know is that they 
have your credit card?
    Ms. Walker. Yes, ma'am. Since I received the phone call 
from the food stamp office--which actually assists families in 
receiving food stamps, and the TANF office is also there--I am 
just assuming, I really don't know, that TANF funds were not 
available for this family, and that they called me for 
assistance for housing.
    So, therefore, that is why we decided to go ahead and put 
them up in a hotel.
    Chairwoman Waters. Okay. Ms. Foscarinis, I appreciate your 
long-standing involvement in the issues of homelessness, 
including your work on the original McKinney Act.
    My question is this: Wasn't that Act itself a targeting or 
prioritization of Federal resources, namely a recognition that 
while America in 1987 had many poor people, it was necessary to 
place some special importance on persons experiencing 
homelessness?
    I pose this question because I am struggling to understand 
why, then, is it not appropriate for the Federal Government to 
place some priority in the allocation of McKinney-Vento 
resources on the chronically homeless, those who have been 
homeless the longest and most often, and frequently are the 
most ill?
    Ms. Foscarinis. That is a good question, Congresswoman 
Waters. I don't think that it is inappropriate to place 
priority on the chronically homeless. I think it is very 
important to recognize that there is an extreme need among all 
homeless people, and that what we really need to do is put in 
the resources to address the needs of all homeless people.
    When the original McKinney-Vento Act was passed, part of 
the missing pieces, the pieces that were not passed, had to do 
with improving access to mainstream services. In response to 
your earlier question, ``Where are those mainstream services,'' 
often homeless people are kept out of those services, because 
they don't have documents, they don't have an address, or they 
don't have IDs. So they are, literally, not able to get access 
to those services. Those services are also oversubscribed, and 
increasing those resources.
    So, I think we need to do those things. I think that is, 
ultimately, the solution to homelessness. I think targeting 
resources to the chronically homeless, in some communities, may 
work. But I don't think that we should be assuming that it is 
going to work across the board. I think that should be a 
decision--the resources are very limited. The community process 
is very important. It is very important that it be inclusive, 
as it has been currently, and that the local communities 
determine their priorities.
    Chairwoman Waters. Thank you very much. I will now 
recognize the ranking member, Mrs. Capito.
    Mrs. Capito. I thank the chairwoman. I want to thank you 
all for your patience, and I am glad that we are back and 
addressing this very critical issue.
    Each of you have addressed the issue of the redefinition of 
homelessness in a different way. Some have expressed some 
reservations. And I think this is really going to be at the 
crux of what piece of legislation we come forward with, whether 
we match the Senate or go with the HEARTH bill, or create 
something in between.
    For those who have expressed some reservations, could you 
get a little bit more specific on what your reservation is in 
expanding the definition? Is it lack of resources? Is it 
inability to specifically define or categorize someone as 
homeless, if the definition is expanded? I believe Ms. 
DeSantis, and maybe the Senator had addressed that, as well.
    Ms. DeSantis. Yes, thank you for the opportunity to address 
that question. And permit me for a minute to personalize the 
response a bit.
    As a young child, my mother was very young. My father left 
us at the age of three. And at that time, my mother was working 
two or three jobs, and couldn't support the two of us. We moved 
into my grandmother's house for close to 14 years. So, never 
once did I consider myself or my mother ``homeless.'' But, 
under the expanded definition of homelessness, we would, 
indeed, be considered homeless.
    So, to respond to your question, yes, it is two-fold. It is 
a matter of limited resources, and spreading those resources 
too thin. But I also--I worry about stigmatizing thousands more 
individuals and families, and calling them homeless, when, 
indeed, I think there are other Federal programs that could 
address the economic disadvantage that many individuals and 
families are experiencing, such as the Section 8 program, such 
as the housing trust fund program.
    Mr. McKinney. Thank you. And, if I could just add, I think 
my concern is one of resources, and that is that we are--I want 
to make sure that those who are at greatest risk of 
homelessness, those with the most need, are getting the 
resources they need.
    I would say, though, that--and listening to Ms. Walker's 
testimony, which is extremely powerful--that all of us here, 
and all of you, should not let the different definitions in S. 
1518 and H.R. 840 prevent us from passing this important Act. 
We should all sit together to work on it.
    If it is the expanded definition in H.R. 840, then I would 
like to see some type of flexibility, perhaps at the community 
level, to make that prioritization, so the dollars could go to 
those at greatest risk. But, yes, I think we are all nervous 
that we are not going to have the resources available. And if 
you are adding, say, 10 more people to the definition of 
homeless, there are going to be more people for the same number 
of resources.
    But those people need help, as well. So I think, at the end 
of the day, it is a matter of resources.
    Mrs. Capito. Madam Chairwoman, do I have time for one more 
question?
    Chairwoman Waters. Yes.
    Mrs. Capito. I was going to address it to Ms. Anderson. I 
know you wanted to speak to this issue as well, so you can 
incorporate that.
    I am wondering, in your Haven House Services, where you are 
the executive director, one of the things in the new bill is 
the consolidation of HUD programs, and the consolidation of 
applications, which, to me, makes extremely good sense. In your 
actual day-to-day or year-to-year applications, how many of 
those HUD programs do you access?
    How many different applications do you have to, in your--
and what other Federal programs do you access with Haven House?
    Ms. Anderson. We are a Hope Project recipient, Social 
Security Administration. We have had HUD funding. It is not a 
primary--in a small community like mine, 62 percent of our 
funds come from donations, soft money, because we don't have 
the ability to access or compete with Federal areas. We don't 
have the population base. And we are in Louisville's SMSA, even 
though we are not necessarily--we don't receive any of their 
Federal funding, because we are in a different HUD region.
    So, we are underserved, dramatically. And while I respect 
the fact that--and I do want to address the definition issue, 
quickly--we are--I have been doing this for 27 years, and I 
have yet to meet a homeless person who has trouble defining who 
they are. It has only been my government and the people I work 
with who have difficulty with that issue. And the very first 
question I had when I was a young social worker was, ``How do 
we define homelessness?'' And still, 27 years later, we are 
talking about definition.
    The thing that amazes me is that I would not be homeless 
tomorrow under any circumstances because, just like Ms. 
DeSantis, my family would be there for me. It is not broken. 
For the people I serve, what I find is that the family units 
have been broken for whatever reason. Maybe they are in public 
housing, and they cannot double or triple up, or they will lose 
the housing themselves. Maybe it is because they had to leave 
the State they were in, because they lost a job.
    There are many, many different reasons why they are doubled 
and tripled up. On a local level, we know those reasons, and we 
know who can stay with family. I can't begin to tell you how 
many times in the course of a week I stopped somebody from 
entering the shelter, because I go back and talk to their 
family, and mediate a problem. But there are still numerous 
people out there who just can't be mediated with.
    Mrs. Capito. Thank you.
    Chairwoman Waters. Thank you very much. Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Madam Chairwoman. Let us start with 
domestic violence, the second most frequently stated cause of 
homelessness for families. Is there anyone who contends that 
victims of domestic violence who have to leave what really is 
their home, that they are not homeless? If so, I would like to 
hear the rationale.
    [No response]
    Mr. Green. Anyone?
    [No response]
    Mr. Green. We all agree. Now, in terms of the legislation 
that we have before us, are we doing enough in the area of 
domestic violence for those persons who have to leave a home, 
but they need some transitional help? Yes?
    Ms. Foscarinis. I think that a very significant step was 
taken when the Violence Against Women Act was reauthorized with 
new provisions to protect the housing rights of domestic 
violence women, and to prevent them from losing their housing 
because of the actions of their abusers. That covers public 
housing and other subsidized housing.
    But there is more that needs to be done. There needs to be 
funding, specifically to provide places for either transitional 
housing, shelter, or permanent housing for women--and it is 
almost always women who are fleeing domestic violence 
situations, and at risk of becoming homeless--so that they have 
an alternative, so that they are not staying with their abuser 
because of fear of becoming homeless, because they don't have a 
home to go to.
    That is really the missing element, providing the funding 
so that there are those alternatives, and making sure there is 
enough affordable housing so that people are not staying in 
domestic violence situations because they do not have a place 
to go.
    Mr. Green. Would someone else like to comment? Yes?
    Ms. Anderson. On any given day in our shelter, 90 percent 
of the women will have been sexually or physically abused. And 
I am not a domestic violence shelter. But those women 
oftentimes will come into our shelter, they will stay a few 
days, and they will go back to the perpetrator before they will 
stay homeless. And it is a lack of resources.
    It is also a lack of meat to the laws, and enforcement of 
those laws. No woman should have to leave her home with her 
children because she has been beaten. And I really wish and 
pray and hope that some day we understand that they need to be 
protected in a real way, and the police officers are actually 
given the enforcement rights they need to make the perpetrator 
leave, and not return. That would be the answer.
    In the meantime, she is right, Ms. Foscarinis, we do not 
have resources to put people in places where they are safe. 
They cannot just go to any motel, because the door gets 
battered down, and they get themselves beaten to death, or they 
get hurt again, or they have to be forced to go into some kind 
of substandard situation.
    So, we really do need to look at how we can make safe 
houses, and enforce the laws that allow women to stay in their 
homes with their families.
    Mr. Green. Let us move to another area. Voter registration, 
as a service. Ms. Anderson, are you permitted, as you perceive 
the current status of the law, to register homeless people who 
are in your facility?
    Ms. Anderson. I have registered homeless people in my 
facility for 22 years. And I always will. So, I am permitted, 
and I refuse for anyone not to allow me to be permitted. We 
register people on a regular basis, because it is their 
Constitutional right to vote.
    Mr. Green. Is there anyone who has experienced some 
complication, in terms of registering people? Please.
    Ms. Foscarinis. I would like to speak to that. I am not 
operating a shelter, but this is an issue that we are quite 
familiar with, because there are very significant barriers to 
allowing homeless people to vote. And voting, of course, is a 
Constitutional right. Courts have held that, even for people 
who don't have a permanent residence, a permanent home because 
they are homeless, they still should be allowed to exercise 
this fundamental right.
    However, in practice, what is happening now--and some of 
this is unintended consequences of 9/11 measures, security 
measures--people, in order to vote, they are being--they need 
to show a photo ID. And homeless people face very high barriers 
in getting this kind of identification, because they don't have 
the documentation, they don't have a home, they don't have a 
utility bill, they don't have the typical identification you 
need to establish identity.
    And so, this has become a very big barrier to getting 
access to public benefits, to getting access to all kinds of 
things that people need to escape homelessness, and also to 
voting.
    Now what we are seeing is that there is a trend to--you 
know, the ``Real ID ACT'' has complicated the ID issue for 
homeless people. And now we are seeing a trend in Federal 
legislation to attach a requirement--including in the housing 
legislation--attach a requirement that States must comply with 
a Real ID Act.
    So, it is making the problem even worse. I don't believe 
that this was intended, and yet the reality is it is keeping 
people--homeless people--out.
    Mr. Green. Thank you. Thank you, Madam Chairwoman. I yield 
back.
    Chairwoman Waters. Thank you very much. Mr. Shays.
    Mr. Shays. Thank you--
    Chairwoman Waters. For 5 minutes.
    Mr. Shays. Thank you, Madam Chairwoman, and I also thank 
the witnesses. I am going to apologize to the second panel. I 
am supposed to also be in the Oversight and Government Reform 
Committee in a hearing on Iraq, and I want to get to some of 
that.
    But let me start by saying I would like someone to tell 
me--I want to first make this quick comment, and say that when 
I go to a homeless shelter, what I love is that the ones I 
see--or most of the ones I see--are not warehouses. There are 
energetic staff there who are trying to work with folks so that 
they don't have to keep coming back, so that they have a place 
ultimately to go to, and they have supportive services to help 
lift them.
    And so, for me, a key feature of this bill is the 30 
percent set-aside. Is there agreement that the 30 percent set-
aside is good, and that it is enough or too little--I'm not 
looking for long dialogue if there is agreement.
    Let me start with you, Mr. McKinney, Senator, are you 
comfortable with the 30 percent, or should it be more, or 
should it be less?
    Mr. McKinney. Well, we would love more. In Connecticut, 
what we have seen, and what we have seen in my hometown, is 
that permanent supportive housing works. And about 80 percent 
of the people who go into permanent supportive housing are in 
that housing a year later. That provides tremendous stability--
    Mr. Shays. You said 80 percent?
    Mr. McKinney. About 80 percent.
    Mr. Shays. Wow.
    Mr. McKinney. It is tremendous stability for families and 
their children. But, you know, I think we need to understand 
that there are not going to be--there are limited dollars. So I 
think the 30 percent set-aside would work.
    Mr. Shays. Okay. Other comments from others? Yes?
    Ms. Foscarinis. Yes, I would like to comment. I--we have 
not supported the set-aside, and the reason is not--is simply 
that we feel that there are many needs that are not being met 
now, and that it should be a matter to be determined at the 
local level by--through the community planning process, where 
to target the resources.
    And it is not because we do not agree. Of course, permanent 
supportive housing is a good thing, and there are many needs 
there, as well. But there has been a very big focus on chronic 
homelessness. And there are families, there are children who 
also have very big needs, and they have needs that can be met 
in other ways.
    So, we need to increase resources--that is very 
fundamental--to solving the underlying issue. But--
    Mr. Shays. Thank you. Let me get to the next one. Thank 
you, ma'am.
    Ms. DeSantis. We do support the 30 percent set-aside. And 
we believe that we are at a point now where we have learned a 
lot about homelessness, and the efficacy of what works.
    I think, now, we see a whole body of research that came out 
of the recent HUD symposium that points to supportive housing 
as a way of addressing long-term homelessness. So, we very much 
support the set-aside.
    Mr. Shays. Ms. Anderson?
    Ms. Anderson. The National Coalition for the Homeless does 
not support the set-aside, primarily because the Stewart B. 
McKinney-Vento Act is an emergency act, and the set-aside takes 
emergency dollars that are needed when 811 could be funded, 
when Section 8 could be funded at higher levels. There are 
maneuvers and mechanisms that could increase supportive 
housing, and we totally support the--giving those funding 
dollars to them. But to take away shelter dollars when shelter 
doors are closing all over this country, we think, is 
detrimental.
    So, we would support increasing 811 and many other programs 
for supportive housing.
    Mr. Shays. Ms. Walker? Thank you for your answer, Ms. 
Anderson.
    Ms. Anderson. Thank you.
    Ms. Walker. We do not support set-asides. We do believe 
that the money needs to be flexible enough to serve those who 
are most needy. And so, the funds should be available on the 
local level, to decide what is the most need in that community.
    Mr. Shays. Okay, let me--I am going to forget all my other 
questions, because I didn't expect to get the answer I got, 
which is interesting, and it is--this is a good panel, to have 
both sides.
    Without talking about the shelter, I was in one shelter in 
my district where there was tremendous energy and dialogue and 
interaction and counseling. And I didn't feel like I was in a 
warehouse. There was another one where it was just totally a 
warehouse. And I didn't feel any hope, any dreams. I just saw a 
warehouse of people. And, frankly, their attitude was down.
    So, I make the assumption that part of that energy from the 
first one was because we are doing this kind of a set-aside 
approach. Tell me why I might be misinformed.
    Ms. Anderson. From just a practical standpoint, we have a 
very poor shelter. But the people are very energetic, they are 
full of hope, and they understand that the staff is working 180 
percent for them. And they don't know anything about set-
asides. They just know that I might be able to get them into 
public housing, and that because I don't have any resources, I 
am going to have to be creative, and I am going to get that 
way.
    They understand that the local manufacturers call us to get 
them jobs. So they believe in us. I have been to human 
warehouses, too, and I despise them. I hope in my country, in 
my land, that there will be a time when we don't have to have 
them.
    Mr. Shays. Right.
    Ms. Anderson. But, in the meantime, there are many 
providers out there who, with very little, are doing as much as 
they can do, like the shelter you visited.
    And people, you're right, when they have that hope and that 
sense of tomorrow, they will go out--we have people who sell 
the Sunday Courier in the rain and the snow to make $10 an 
hour. And they do it every Sunday, and they're homeless, and 
they have not missed for 5 years. So it is--they have hope.
    Mr. Shays. But are they still--they have been homeless for 
5 years?
    Ms. Anderson. No, sir. They come back and they do that with 
us on Sunday, as housed people.
    Mr. Shays. Oh, I see.
    Ms. Anderson. They stay a part of the program.
    Mr. Shays. I understand.
    Ms. Anderson. They come back to volunteer, and to give 
back.
    Mr. Shays. I understand.
    Ms. Anderson. Because they believe that is important.
    Mr. Shays. But I am happy you clarified that. Let me just 
end, Madam Chairwoman, by thanking you. And I would love to 
give a fourth introduction of Senator McKinney.
    [Laughter]
    Mr. Shays. But I will say this. God bless your dad.
    Chairwoman Waters. Thank you very much.
    Mr. Shays. God bless your dad.
    [Applause]
    Chairwoman Waters. Mrs. Biggert, for 5 minutes.
    Mrs. Biggert. Thank you, Madam Chairwoman. Ms. Walker, I 
was once, in one of my former lives, a school board president 
for high schools, and I appreciate what you do as a homeless 
liaison. I think that really helps so much, to help the kids, 
particularly with the education. So, thank you.
    What I was wondering was if you could provide us with the 
Senate bill definition and HUD definition of ``homeless.'' We 
have been talking around it, but--
    Ms. Walker. Thank you, Congresswoman. Under the Senate 
bill, the definition is: ``People in motels paid for by 
government programs; people who are doubled up, but only if 
they have moved 3 times in 1 year, or 2 times in the past 21 
days, or they have been notified by the owner or renter of 
their lodging that they can no longer stay for a short period 
of time, and they do not have any other resources to contribute 
to the rent; and people who are in motels, but only if they 
have moved 3 times in 1 year, or 2 times in the past 21 days, 
and they can pay for the room only for a short period of 
time.''
    Under the current HUD definition, it states that: ``Persons 
living in a place not fit for habitation, in cars, campgrounds, 
abandoned buildings, on the streets, emergency shelter, 
transitional living facility, supportive housing facility; or 
persons that have received an eviction notice from the unit 
that they are staying in.''
    Mrs. Biggert. Okay. Do you think that these definitions 
serve the needs of the homeless children, or is there a 
definition that would help to include the homeless children?
    Ms. Walker. In my opinion, neither one of the definitions 
really serve homeless children. And the reason I say that is 
because if a child has to move three or four times before they 
can be identified as homeless, that does not give stability to 
that child. That child loses school books, that child loses 
clothing, and the child doesn't know, from day to day, whether 
or not--``Do I go to Momma's house, or am I going to Cousin's 
house? Am I going to be living in the car today?'' It just does 
not give any stability for the child.
    Under the current HUD definition, it doesn't include 
anything about living with anyone else, or having a 21-day 
notice, or an eviction notice from the family member. So, both 
definitions really do not address how this would affect a child 
of moving, and not having stability in their living situation.
    Mrs. Biggert. Okay. So, if you were to have another 
definition, the things that you said they don't include are the 
ones that should be included?
    Ms. Walker. The current definition on the education for 
McKinney-Vento is one of the best definitions that I have seen 
that really addresses the needs of children.
    When you think about a doubled-up situation, or a tripled-
up situation, we are not just talking about persons wanting to 
live with another family member, and including them in this 
definition. We are talking about families who have no other 
choice but to live with someone else, because there is no other 
places available, or they cannot afford to put themselves in a 
hotel.
    Mrs. Biggert. Okay, thank you. About the Administration's 
chronic homelessness initiative, do you think that this has 
resulted in less attention or services for children, or is it 
doing what it should be doing?
    Ms. Walker. It is not addressing the children's issues at 
all in the current chronic homeless position.
    Unless unaccompanied youth--and we're not talking about 
children within a family situation--in an unaccompanied youth 
situation, this child has to be homeless for a year before--or 
three times within one year--before they can be considered 
chronically homeless, and have a disability.
    So, really and truly, it doesn't address the families and 
children.
    Mrs. Biggert. I think we have used that definition, not 
necessarily with the disabilities, but ``unaccompanied'' as--
usually as a runaway?
    Ms. Walker. Yes.
    Mrs. Biggert. Or someone who is--
    Ms. Walker. Run away, or someone who has been put out of 
their home, because the family has decided that they can no 
longer live there.
    Mrs. Biggert. Okay, okay. So, we can just take that out of 
the mix.
    Ms. Walker. Yes.
    Mrs. Biggert. Okay. Is there anything else you would like 
to add?
    Ms. Walker. I just strongly believe that, if we look at our 
future, which is our children, and really look at this 
definition to align with the education definition, then our 
children will be served best. If we look at the McKinney-Vento 
definition, and align it with the HEARTH definition, which is 
excellent, and great, and I feel like this really would serve 
the children.
    We are not trying to over-identify, we are just trying to 
identify that which is already in existence.
    Mrs. Biggert. Thank you. I yield back.
    Chairwoman Waters. Thank you very much. We have no other 
members present to have questions. And the Chair would note 
that some members may have additional questions for this panel, 
which they may wish to submit in writing. So, without 
objection, the hearing record will remain open for 30 days, for 
members to submit written questions to all of the witnesses, 
and to place their responses in the record.
    I would like to thank you so very much for your patience, 
for the work that you have done, and for the care that you have 
given to this issue. I thank you for coming to Washington to 
share your knowledge and experience with us. The panel is now 
dismissed, and I would like to bring on a third panel. Thank 
you very much.
    I am very pleased to welcome our distinguished third panel. 
And I, too, thank you for your patience. Coming to Washington 
to testify is not an easy thing. And sitting for long hours is 
certainly not something that we would like to see happen, but 
it does happen this way sometimes, so we are very appreciative 
of you.
    I would like to ask Ms. Capito to introduce Ms. Weintraub.
    Mrs. Capito. Thank you, Madam Chairwoman. I am very pleased 
to have Amy Weintraub. I mentioned her in my opening 
statements, and I do mirror the chairwoman's statements, and 
thank you for your patience. But this is extremely interesting, 
and a very important topic.
    Amy is the executive director of Covenant House, which is a 
homeless shelter serving men, women, and children. And a new 
veterans' homeless connection, which I want to talk about. But 
she has a long history of being a real advocate for those who 
need help in our community. She has a lot of energy, a lot of 
intellect that she brings, and she has also been just recently 
appointed by the Governor to be on the West Virginia 
Interagency Council to End Homelessness. So, welcome, Amy. I am 
pleased that you are here.
    Chairwoman Waters. Thank you very much. The next witness we 
have is Ms. Linda Young, who is the executive director of 
Welcome House of Northern Kentucky. Mr. Davis wanted to 
introduce you, but he could not get back in time to do so.
    And so we welcome you here today, along with Ms. Jessica 
Vasquez, executive director of the New York State Coalition 
Against Domestic Violence, and Mr. Jeremy Rosen, executive 
director, National Policy and Advocacy Council on Homelessness.
    Without objection, your written statements will be made 
part of the record. You will now be recognized for a 5-minute 
summary of your testimony, and we will start with Ms. 
Weintraub.
    Ms. Weintraub. On behalf of Covenant House of West 
Virginia--
    Chairwoman Waters. Ms. Weintraub, if you will hold your 
testimony for just one moment, I am not going to deny Mr. Davis 
the opportunity to introduce Ms. Young, as he was scheduled to 
do. Thank you for rushing back.
    Mr. Davis. You can tell, by my disheveled look, that I was 
on a--
    Chairwoman Waters. I can tell.
    Mr. Davis. I appreciate your graciousness, Madam 
Chairwoman. And, actually, introducing Linda Young, the 
director of Welcome House, is a great privilege for many 
reasons. She has invested a lifetime in helping many, many 
folks in our community, and giving them a real future, and is 
actually kind of famous in our district.
    The group I was with before running back over here was 150 
students and teachers from Beechwood School. And they all--all 
the teachers cheered when they heard your name, that I was 
going to be coming back here. So they sent their regards and 
thanks for your contribution to the community.
    Thank you for being here, and for the years of work that we 
have invested together. I yield back.
    Chairwoman Waters. Thank you very much. And thank you for 
your patience, Ms. Weintraub.
    Ms. Weintraub. Thank you.
    Chairwoman Waters. You may proceed.

STATEMENT OF AMY WEINTRAUB, EXECUTIVE DIRECTOR, COVENANT HOUSE 
                        OF WEST VIRGINIA

    Ms. Weintraub. On behalf of Covenant House of West 
Virginia, and the Kanawha Valley Collective, which is the 
Charleston Area Continuum of Care, I thank you all for the 
opportunity to bring the voices of West Virginia to this 
dialogue about homelessness.
    I especially thank Congresswoman Capito for inviting me, 
and for her recognition that we, back home, are very concerned 
with how McKinney-Vento will be reauthorized. West Virginia's 
motto--you may know it--is Montani Semper Liberi, 
``Mountaineers are Always Free.'' Our communities have a long 
history of resisting control from above, and subscribe to the 
theory that we know best how to serve our needs.
    For West Virginians, passage of this beautiful piece of 
legislation called the HEARTH Act will mean preserving 
community flexibility in both rural and more urban settings. 
The HEARTH Act adopts a simple approach to meeting the needs of 
rural communities. By aligning HUD's definition of homelessness 
with the definition used by other Federal agencies, it ensures 
that people who are without homes in rural areas are counted as 
homeless.
    Let us think for a moment about West Virginia. Our 
mountains and our rugged topography mean that we don't have a 
lot of cities and towns. Roadways wind along creek and river 
beds. We call it community. You may see it as houses here and 
there along the road.
    Now, let's think of Dareema. She is a single mom who has 
just been evicted from a trailer park in West Virginia. She and 
her kids are staying with friends in their house down the road, 
but the husband isn't pleased with the situation, and it is 
very precarious. It is easy to see that the issues of Dareema 
in rural West Virginia are far different than those faced by a 
similar woman being evicted from a housing project in the 
Bronx, or even in Charleston. Rural America has fewer options.
    Dareema's county, like many in our State, has no shelter. 
It doesn't have an affordable housing program, due to the 
current HUD set-asides and incentives that favor urban areas. 
This forces rural West Virginians to leave their home 
communities and to come to big cities like Charleston for help.
    With passage of this bill, and removal of HUD set-asides 
and incentives favoring urban areas, our localities will be 
able to have the flexibility that we need to implement a range 
of housing options.
    As you have heard from others, the HEARTH Act more closely 
aligns the HUD definition of homelessness with other Federal 
agencies, and West Virginia applauds this. Children sleeping in 
a roadside motel in rural West Virginia with their moms are in 
as much need of comprehensive support services related to 
housing, as if they were staying in Sojourners Night Shelter in 
downtown Charleston. Yet, HUD-funded services are not available 
to them. They do not meet the HUD definition of what it means 
to be homeless.
    I understand that Congresswoman Waters is a social worker, 
or comes from a social work background. And I am sure you can 
understand the frustration of our staff, at not being able to 
refer some families to other community providers, because those 
providers are not allowed to provide services.
    For example, an unemployed man who has been staying at a 
flea bag motel for several weeks, and who needs resume help and 
job help and interview assistance is not able to go to 
Charleston's YWCA Job Readiness Center, because it is only for 
the ``homeless,'' as defined by HUD.
    Or, a woman who moves from an emergency shelter into--in 
with her new boyfriend, who is very sketchy, and she has 
ongoing emotional and mental health needs, but she has to be 
dropped from our intensive support services case management 
system, because that is only for the homeless, as defined by 
HUD.
    Or, a mother who is living with AIDS, and her child, who 
are currently living in an emergency shelter cannot move into 
our permanent Section 811 housing that Covenant House has, 
because it is only for the ``homeless,'' as defined by HUD.
    I would like to say that the idea that our system is 
somehow going to become overwhelmed by all of these people 
suddenly being defined as homeless is just unfounded. School 
districts have been using this broader definition for 10 years. 
And, unlike HUD homeless assistance, the education statute is 
an entitlement with greater costs, such as transportation. Yet 
there has been no, ``The sky is falling,'' response from the 
Department of Education.
    The fact is, recognizing and acknowledging the predicament 
and needs of all homeless people similarly across agencies 
actually, in my view, has the potential to streamline delivery 
services, and make the Federal machine more efficient.
    Covenant House, and our partnering West Virginia agencies 
and organizations, are fully committed to the idea that the 
needs of the hardest to serve and the most in need will be met. 
We assure you that they will always be our top collective 
priority. However, we want to provide services for all who are 
homeless, whether they are living in a shelter, or on the 
streets, or otherwise.
    As for the Senate bill, S. 1518, I am happy to address that 
in my Q&A. I have run out of time. I just want to again say 
that West Virginia is in strong support of the HEARTH Act. And 
thank you for your interest in hearing from our State, as we 
fight poverty and homelessness.
    [The prepared statement of Ms. Weintraub can be found on 
page 141 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Vasquez?

  STATEMENT OF JESSICA VASQUEZ, EXECUTIVE DIRECTOR, NEW YORK 
           STATE COALITION AGAINST DOMESTIC VIOLENCE

    Ms. Vasquez. Chairwoman Waters, Ranking Member Capito, and 
distinguished members of the committee, my name is Jessica 
Vasquez. I am the executive director of the New York State 
Coalition Against Domestic Violence, and a board member of the 
National Network to End Domestic Violence. Thank you for the 
opportunity to address the committee about reauthorization of 
the McKinney-Vento Homeless Assistance Act.
    The inter-related nature of domestic violence and 
homelessness is undeniable. This is not because homeless women 
are more likely to be victims of domestic violence. But, 
rather, because experiencing domestic violence often forces 
women and children into homelessness. Given this connection, 
the McKinney-Vento Homeless Assistance Act has provided 
significant funding for domestic violence shelters, 
transitional housing programs, and services.
    Unfortunately, HUD's practice in recent years has caused a 
range of problems for victims of domestic violence and programs 
that serve them. H.R. 840, the HEARTH Act, solves these 
problems by returning control to the local communities in 
addressing the needs of homeless families. By expanding the 
definition of homelessness and eliminating bonus points and 
set-asides, the HEARTH Act ensures the diverse needs of all 
communities can be met.
    The difficulty in addressing homelessness within New York 
provides a window into the complexities faced by local 
jurisdictions. Our State combines extremely urban and extremely 
rural areas. Stays on domestic violence programs are limited by 
the State to a maximum of 90 days with one 45-day extension. 
But with insufficient transitional and permanent housing 
options, only 20 percent of the victims leaving domestic 
violence shelters enter permanent housing.
    In New York City, staying in a domestic violence shelter 
doesn't count as time spent homeless, by HUD definition. So, to 
receive any services, victims must actually requalify as 
homeless. To prevent victims from having to sleep in the 
street, many programs pay out-of-pocket to serve them, 
receiving no reimbursement from HUD.
    The HEARTH Act would help end homelessness in New York, 
first by expanding the definition of homelessness. The Nassau 
County Coalition Against Domestic Violence, which serves a 
largely suburban population just outside New York City, reports 
that victims of domestic violence and their children sleeping 
on floors and doubled up in untenable situations are not 
considered homeless, and are often trapped in dangerous 
situations.
    They estimate that they could easily serve an additional 30 
families each year if the definition of homelessness was 
expanded. This would not require additional funding, and the 
expanded definition would not overwhelm their system. They 
could serve these families, if only they were allowed to do so.
    The second key way in which the HEARTH Act would end 
homelessness is by removing bonus point set-asides and carve-
outs. Rather than pitting needy populations against each other, 
the HEARTH Act recognizes that there are many hard-to-serve 
populations, including homeless immigrants, prisoners re-
entering the community, and teens who have turned to drugs and 
violence to survive.
    Every community has different groups who are very difficult 
to serve. And prioritizing one over the other at the Federal 
level does nothing to help each State address its unique 
homeless population. Instead, the HEARTH Act rewards 
``continua'' of care that engage in an inclusive process, 
conduct a thorough needs analysis, and propose funding projects 
that truly respond to those identified needs. It returns the 
decision-making power to local service providers who are on the 
ground, in communities, and are best equipped to analyze the 
needs of homeless individuals and develop effective responses.
    Rural Allegheny County has one of the highest poverty rates 
in New York State, and old substandard housing stock. Because 
of bonus points and set-asides that don't reflect their 
reality, the Accord Corporation lost their SHP and ESG funding, 
and had to close both their transitional and emergency shelter 
program. They currently only have five beds available in their 
county for only survivors of domestic violence. Accord was the 
only homeless shelter in the county, and many homeless families 
and victims of domestic violence are now with very limited 
resources.
    These bonus points and set-asides haven't helped urban 
areas, either. Two years after beginning a plan to end chronic 
homelessness in accordance with HUD priorities, New York City 
reported the highest number of homeless families in the City's 
history.
    While the Senate's Community Partnership to End 
Homelessness Act takes laudable steps in the right direction, 
it unfortunately stops short of what is needed. It proposes 
expanding the definition of homelessness to include some 
doubled-up individuals, but only if they have moved multiple 
times. Requiring multiple moves may place a victim fleeing 
violence in greater danger.
    While we appreciate the effort to respond to the needs of 
families in rural areas, the best way to help all homeless 
persons in all parts of the country is to stop carving up 
McKinney-Vento funding, and let the States use it more flexibly 
and efficiently. For these reasons, we believe that the HEARTH 
Act is the most effective solution to ending homelessness for 
New Yorkers.
    Thank you again for your consideration of the needs of 
victims of domestic violence. We look forward to working with 
you and your staff in the upcoming months.
    [The prepared statement of Ms. Vasquez can be found on page 
95 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Young, for 5 minutes.

STATEMENT OF LINDA M. YOUNG, EXECUTIVE DIRECTOR, WELCOME HOUSE 
                      OF NORTHERN KENTUCKY

    Ms. Young. I appreciate the opportunity to be here today in 
support of the HEARTH Act on behalf of people who experience 
homelessness and in the continuum of care in the northern 
Kentucky area. I am Linda Young, executive director of Welcome 
House of Northern Kentucky.
    The agency has been serving the homeless and at-risk 
population for 25 years, providing a continuum of services, 
ranging from outreach to people on the streets, a food pantry, 
emergency shelter, payee and other financial services, case 
management and employment services, and service-enriched 
housing for families whose goal is self-sufficiency.
    We served 9,700 people in 2006: 99 percent had incomes 
under $10,000; approximately 35 percent had a significant 
mental illness or mental health issue; 40 percent had a 
chemical dependency issue; approximately 45 percent were 
homeless because of domestic violence; and most were poorly 
educated.
    The fastest growing segment of the homeless population we 
serve is families--40 percent. We are in an urban setting that 
is part of the greater Cincinnati Metropolitan Area.
    The economic realities of a minimum wage job that doesn't 
lift a family out of poverty, rising housing and utility costs, 
a drop in the manufacturing sector, and a rise in the service 
sector, with lower-paying jobs for unskilled and semi-skilled 
workers, have huge costs. The demand for shelter has increased. 
However, the people residing in shelters are just the tip of 
the iceberg. The condition of homelessness is, for the most 
part, hidden.
    There is a significant number of families living doubled up 
with family and friends because their earnings do not cover 
basic household expenses. Moving frequently makes it difficult 
to keep a job, and children miss enough schooling to prevent 
them from getting an education, the very thing that gives them 
a chance to find a way out of poverty, and at risk of being 
homeless. These families do not meet the current definition of 
homelessness, and therefore, are not eligible for our services 
until they go into a shelter, or are on the street.
    More recently, priorities have shifted to the chronic 
homelessness initiative, and in the future, less emphasis and 
funding for the renewal of supportive services grants for the 
homeless. Prioritizing funds to this specific population is 
limited, and diverts funds away from homeless families. The 
continuum of care has been built on an integrated approach of 
housing and services, inclusive of people who are chronically 
homeless.
    In our region, we work together to provide a comprehensive, 
holistic approach to meet a range of needs of homeless people 
in our community. Housing developers using HUD funds, public 
housing, and private landlords have learned to rely on the 
support services to stabilize individuals and families who are 
homeless. Case management is often a condition for which 
housing is accessed by people with poor rental histories and/or 
have disabilities and challenges to maintain stability. A 
reduction in these services will have a devastating impact.
    A basic understanding of the continuum of care process is 
that homelessness is not caused merely by a lack of shelter, 
but involves a variety of underlying unmet needs. Housing alone 
will not address the issue of homelessness.
    From the perspective of the director of a relatively small 
agency that provides services for the homeless, I can tell you 
that one of my biggest concerns is the number of children we 
are serving. In 2006, 39 percent of the people served at 
Welcome House were children, over half under 5 years of age.
    If we are truly interested in ending homelessness, it will 
take a concerted effort on many focused fronts, not 
concentrating on one group at the expense of others.
    I have been an active participant in the continuum care 
system in the northern Kentucky area for over 12 years. The 
continuum of care has included faith-based organizations, 
businesses, government, service providers, landlords, 
professionals, advocates, and people who have been homeless. 
Over time, we have built a comprehensive approach to planning, 
organizing, evaluating, and advocating. Because we must make 
the most of resources in our community, we have learned to be 
innovative, and work together more effectively and efficiently 
throughout this process.
    The homeless assistance grants have provided critical 
resources for emergency shelter, transitional and permanent 
housing, supportive housing, and supportive services. Ours, as 
well as continua of care across the country, are functioning as 
HUD intended, a continuum of care system designed to address 
the critical problem of homelessness through a coordinated 
community-based process of identifying needs, and building a 
system to address those needs. The approach is predicated on 
the understanding that homelessness involves a variety of 
underlying unmet physical, economic, and social needs.
    Each continuum of care community is unique. Urban, 
suburban, and rural communities in various geographic locations 
have much different needs, available resources, and approaches. 
I support that planning boards, as recommended in the HEARTH 
ACT, be established in each locality to design, execute, and 
evaluate programs, policies, and practices to prevent and end 
homelessness.
    Chairwoman Waters. I am going to have to ask you to wrap up 
your testimony. We are going to have to go back to the Floor 
and vote, and I want to make sure that we get Mr. Rosen's 
testimony in, and we give the members each one question, 
because we will not tie your time up, and have you wait another 
40 or 50 minutes until we get back. So will you wrap up now?
    Ms. Young. Yes. I just wanted to thank Congressman Davis, 
and all the committee, for allowing me to speak, and thank you 
all for your interest in creating solutions to end 
homelessness.
    [The prepared statement of Ms. Young can be found on page 
150 of the appendix.]
    Mr. Davis. Madam Chairwoman?
    Chairwoman Waters. Yes?
    Mr. Davis. I was wondering if we could ask unanimous 
consent to submit the balance of Ms. Young's remarks for the 
record.
    Chairwoman Waters. Absolutely. Without objection, it is so 
ordered.
    Mr. Davis. Thank you.
    Chairwoman Waters. Yes, Mr. Rosen?

STATEMENT OF JEREMY ROSEN, EXECUTIVE DIRECTOR, NATIONAL POLICY 
              AND ADVOCACY COUNCIL ON HOMELESSNESS

    Mr. Rosen. Congresswoman Waters, thank you for your 
invitation to testify today and for your strong leadership on 
affordable housing issues. Ranking Member Capito, thank you as 
well, for your commitment to housing homelessness issues, as 
you assume your new post.
    I would also like to thank two other members of the 
subcommittee: Representatives Julia Carson and Geoff Davis, for 
their leadership in introducing H.R. 840, the HEARTH Act of 
2007. Let me also commend Representative Judy Biggert for her 
commitment to ensuring that every homeless child and youth can 
attend school. Thank you, as well, to all the subcommittee 
members who have co-sponsored the HEARTH bill.
    I am Jeremy Rosen, executive director of the National 
Policy and Advocacy Council on Homelessness. I have spent the 
past 9 years providing assistance to homeless persons, first 
through direct legal assistance, and now by promoting 
comprehensive public policies to help end homelessness.
    We will not end homelessness in the United States without a 
major commitment to the development and preservation of 
affordable housing that goes far beyond the current investment 
made by Federal, State, and local governments.
    As an extremely small percentage of the current Federal 
housing budget, HUD's homeless assistance grant programs were 
never designed to end homelessness in this country, and they 
are incapable of doing so. Nevertheless, it is our collective 
responsibility, in reauthorizing the McKinney-Vento Homeless 
Assistance Act, to design an effective and efficient program 
that provides a full range of housing and services to as many 
homeless children, youth, families, and single adults as 
possible.
    Enacting the HEARTH Act is a critical first step in meeting 
our moral obligation to these Americans. HEARTH will 
consolidate and simplify HUD's homeless assistance grant 
programs, align HUD's definition of homelessness with the 
definition used by the U.S. Departments of Education, Justice, 
and HHS, eliminate administratively-created set-asides and 
incentives that hamper local efforts to prevent and end 
homelessness, better support rural communities, and provide new 
opportunities to fund homelessness prevention.
    Many different viewpoints will be expressed in the 
testimony at this hearing. Witnesses will say that HUD's 
current policies are working well across the country. We 
believe that they are not.
    We are now 6 years through a 10-year Federal initiative to 
end chronic homelessness. We have successfully housed, through 
the initiative, many people in permanent supportive housing. 
Unfortunately, the number of chronically homeless individuals 
in this country is no lower today than it was 6 years ago. This 
calls into question whether or not, within the remaining 4 
years, we will be successful in truly ending chronic 
homelessness.
    The reason, quite simply, for this is that, instead of 
providing new and significant resources to house a difficult-
to-house population, HUD and the Administration chose to divert 
resources, resources that were going to provide housing and 
resources for other homeless populations, including many 
children, youth, and families.
    My organization, and many of the other witnesses who have 
testified today, do not object to serving those folks who are 
living on the street, and providing them with housing. We do, 
however, remain concerned that prioritizing a particular 
population is diverting resources away from groups who need 
that funding just as much.
    Many of the other witnesses will also say today that the 
Senate's approach to reauthorization would be more effective 
than HEARTH. The Senate approach will be described as a careful 
balance, crafted to ensure that limited funding is used to 
serve the most vulnerable homeless persons. We disagree.
    Finally, witnesses will say that we cannot afford HEARTH, 
it will make too many people eligible for Federal homeless 
assistance. This is not the case. To determine eligibility for 
Federal programs, we must first adequately define the eligible 
population--in this case, the number of people in this country 
who do not have a home of their own. Resources are insufficient 
to serve all eligible people. We must strive to increase the 
available funds. And in the interim, we must rely on people in 
local communities to make tough decisions about how to most 
effectively use the limited Federal funding that they receive.
    In short, how we define homelessness must not be influenced 
by the funding currently available for homeless assistance 
programs. Important social programs cannot be solved by merely 
defining them out of existence, as HUD has sought to do, by 
declaring that the Federal Government is committed only to 
ending chronic homelessness. This is an unacceptably modest 
goal.
    I look forward to answering your questions. Thank you.
    [The prepared statement of Mr. Rosen can be found on page 
79 of the appendix.]
    Chairwoman Waters. Thank you very, very much. I am going to 
forgo my questions, because we have to get to the Floor.
    Mr. Davis was not here to ask any questions of the last 
panel, so I will yield time to him, and there will only be time 
for one question, and then we have to rush to the Floor. So I 
recognize Mr. Davis for 1 minute.
    Mr. Davis. Thank you, Madam Chairwoman. This question is 
for Linda Young.
    If HEARTH was signed into law 6 months from now--and I 
think I am probably being optimistic, in the current political 
climate--I guess my question would be, what impact would it 
have on the types of homelessness that you see on a regular 
basis? And maybe you could tell a little bit about, in 
particular, how it would affect children in the short and long 
term.
    Ms. Young. Well, specifically, it will give us the 
flexibility to do what needs to be done for each particular 
family. And, also, not only the flexibility, but will help 
bring into the fold people who we now have to wait until they 
go into a shelter or are out on the streets before we can help 
them.
    It will allow us, as a community, to be flexible in meeting 
the needs of each particular--whether we are rural or urban, 
and be able to express specific needs, and actually gather 
resources in our own community to do that.
    Mr. Davis. Would you just say, in closing, that the reason 
that you need this is that, in reality, the type of 
homelessness that you deal with doesn't fit the public 
stereotype?
    Ms. Young. That would be correct.
    Mr. Davis. Okay. Thank you. I yield back.
    Chairwoman Waters. Thank you very much. Unfortunately, we 
have to go back to the Floor and vote. We thank you so very 
much for coming, and giving us your testimony here today.
    And I note that some of the members may have additional 
questions for the panel, so, without objection, the hearing 
record will remain open for 30 days for members to submit 
written questions to the witnesses, and to place their 
responses in the record. This panel is now dismissed, and I 
thank you again so very much.
    [Whereupon, at 1:22 p.m., the hearing was adjourned.]


                            A P P E N D I X



                            October 4, 2007


[GRAPHIC] [TIFF OMITTED] T9906.001

[GRAPHIC] [TIFF OMITTED] T9906.002

[GRAPHIC] [TIFF OMITTED] T9906.003

[GRAPHIC] [TIFF OMITTED] T9906.004

[GRAPHIC] [TIFF OMITTED] T9906.005

[GRAPHIC] [TIFF OMITTED] T9906.006

[GRAPHIC] [TIFF OMITTED] T9906.007

[GRAPHIC] [TIFF OMITTED] T9906.008

[GRAPHIC] [TIFF OMITTED] T9906.009

[GRAPHIC] [TIFF OMITTED] T9906.010

[GRAPHIC] [TIFF OMITTED] T9906.011

[GRAPHIC] [TIFF OMITTED] T9906.012

[GRAPHIC] [TIFF OMITTED] T9906.013

[GRAPHIC] [TIFF OMITTED] T9906.014

[GRAPHIC] [TIFF OMITTED] T9906.015

[GRAPHIC] [TIFF OMITTED] T9906.016

[GRAPHIC] [TIFF OMITTED] T9906.017

[GRAPHIC] [TIFF OMITTED] T9906.018

[GRAPHIC] [TIFF OMITTED] T9906.019

[GRAPHIC] [TIFF OMITTED] T9906.020

[GRAPHIC] [TIFF OMITTED] T9906.021

[GRAPHIC] [TIFF OMITTED] T9906.022

[GRAPHIC] [TIFF OMITTED] T9906.023

[GRAPHIC] [TIFF OMITTED] T9906.024

[GRAPHIC] [TIFF OMITTED] T9906.025

[GRAPHIC] [TIFF OMITTED] T9906.026

[GRAPHIC] [TIFF OMITTED] T9906.027

[GRAPHIC] [TIFF OMITTED] T9906.028

[GRAPHIC] [TIFF OMITTED] T9906.029

[GRAPHIC] [TIFF OMITTED] T9906.030

[GRAPHIC] [TIFF OMITTED] T9906.031

[GRAPHIC] [TIFF OMITTED] T9906.032

[GRAPHIC] [TIFF OMITTED] T9906.033

[GRAPHIC] [TIFF OMITTED] T9906.034

[GRAPHIC] [TIFF OMITTED] T9906.035

[GRAPHIC] [TIFF OMITTED] T9906.036

[GRAPHIC] [TIFF OMITTED] T9906.037

[GRAPHIC] [TIFF OMITTED] T9906.038

[GRAPHIC] [TIFF OMITTED] T9906.039

[GRAPHIC] [TIFF OMITTED] T9906.040

[GRAPHIC] [TIFF OMITTED] T9906.041

[GRAPHIC] [TIFF OMITTED] T9906.042

[GRAPHIC] [TIFF OMITTED] T9906.043

[GRAPHIC] [TIFF OMITTED] T9906.044

[GRAPHIC] [TIFF OMITTED] T9906.045

[GRAPHIC] [TIFF OMITTED] T9906.046

[GRAPHIC] [TIFF OMITTED] T9906.047

[GRAPHIC] [TIFF OMITTED] T9906.048

[GRAPHIC] [TIFF OMITTED] T9906.049

[GRAPHIC] [TIFF OMITTED] T9906.050

[GRAPHIC] [TIFF OMITTED] T9906.051

[GRAPHIC] [TIFF OMITTED] T9906.052

[GRAPHIC] [TIFF OMITTED] T9906.053

[GRAPHIC] [TIFF OMITTED] T9906.054

[GRAPHIC] [TIFF OMITTED] T9906.055

[GRAPHIC] [TIFF OMITTED] T9906.056

[GRAPHIC] [TIFF OMITTED] T9906.057

[GRAPHIC] [TIFF OMITTED] T9906.058

[GRAPHIC] [TIFF OMITTED] T9906.059

[GRAPHIC] [TIFF OMITTED] T9906.060

[GRAPHIC] [TIFF OMITTED] T9906.061

[GRAPHIC] [TIFF OMITTED] T9906.062

[GRAPHIC] [TIFF OMITTED] T9906.063

[GRAPHIC] [TIFF OMITTED] T9906.064

[GRAPHIC] [TIFF OMITTED] T9906.065

[GRAPHIC] [TIFF OMITTED] T9906.066

[GRAPHIC] [TIFF OMITTED] T9906.067

[GRAPHIC] [TIFF OMITTED] T9906.068

[GRAPHIC] [TIFF OMITTED] T9906.069

[GRAPHIC] [TIFF OMITTED] T9906.070

[GRAPHIC] [TIFF OMITTED] T9906.071

[GRAPHIC] [TIFF OMITTED] T9906.072

[GRAPHIC] [TIFF OMITTED] T9906.073

[GRAPHIC] [TIFF OMITTED] T9906.074

[GRAPHIC] [TIFF OMITTED] T9906.075

[GRAPHIC] [TIFF OMITTED] T9906.076

[GRAPHIC] [TIFF OMITTED] T9906.077

[GRAPHIC] [TIFF OMITTED] T9906.078

[GRAPHIC] [TIFF OMITTED] T9906.079

[GRAPHIC] [TIFF OMITTED] T9906.080

[GRAPHIC] [TIFF OMITTED] T9906.081

[GRAPHIC] [TIFF OMITTED] T9906.082

[GRAPHIC] [TIFF OMITTED] T9906.083

[GRAPHIC] [TIFF OMITTED] T9906.084

[GRAPHIC] [TIFF OMITTED] T9906.085

[GRAPHIC] [TIFF OMITTED] T9906.086

[GRAPHIC] [TIFF OMITTED] T9906.087

[GRAPHIC] [TIFF OMITTED] T9906.088

[GRAPHIC] [TIFF OMITTED] T9906.089

[GRAPHIC] [TIFF OMITTED] T9906.090

[GRAPHIC] [TIFF OMITTED] T9906.091

[GRAPHIC] [TIFF OMITTED] T9906.092

[GRAPHIC] [TIFF OMITTED] T9906.093

[GRAPHIC] [TIFF OMITTED] T9906.094

[GRAPHIC] [TIFF OMITTED] T9906.095

[GRAPHIC] [TIFF OMITTED] T9906.096

[GRAPHIC] [TIFF OMITTED] T9906.097

[GRAPHIC] [TIFF OMITTED] T9906.098

[GRAPHIC] [TIFF OMITTED] T9906.099

[GRAPHIC] [TIFF OMITTED] T9906.100

[GRAPHIC] [TIFF OMITTED] T9906.101

[GRAPHIC] [TIFF OMITTED] T9906.102

[GRAPHIC] [TIFF OMITTED] T9906.103

[GRAPHIC] [TIFF OMITTED] T9906.104

[GRAPHIC] [TIFF OMITTED] T9906.105

[GRAPHIC] [TIFF OMITTED] T9906.106

[GRAPHIC] [TIFF OMITTED] T9906.107

[GRAPHIC] [TIFF OMITTED] T9906.108


</pre></body></html>
